    INTERNAL CONTROLS AND COMPLIANCE WITH LAWS
  AND REGULATIONS FOR THE DOD MILITARY RETIREMENT
     TRUST FUND FINANCIAL STATEMENTS FOR FY 1997



Report No. 98-171                          June 30, 1998




              Office of the Inspector General
                  Department of Defense
                                   - ._

  Additional Copies

  To obtain additional copies of this report, contact the Secondary Reports
  Distribution Unit of the Anaiysis, Planning, and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937), FAX (703) 604-8932, or visit the Inspector
  General, DOD, Home Page at WWW.DODIG.OSD.MlL

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Planning aud
  Coordination Branch of the Analysis, Plauning, and Technical Support
  Directorate at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas
  and requests can also be mailed to:

                      OAIG-AUD (A’TTN: APT’SAudit Suggestions)
                      Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 4249098; by sending an electronic message to
  Hotline@DODIG.OSD~.MIL; or by writing the Defense Hotline, The Pentagon,
  Washington, D.C. 20301-1900. The identity of each writer and caller is fully
  protected.




DFAS                Defense Finance and Accounting Service
DRAS                Defense Retiree and Ammitant Pay System
                    Federal Financial Management Improvement Act
                    Inspector General
                    Office of Management and Budget
                    Survivor Benefit Program
                                    INSPECTOR    GENERAL
                                   DEPARTMENT Of DEFENSE
                                     400 ARMY NAVY DRIVE
                                   ARLINGTON, VIRGINIA 22202




                                                                                 June 30, 1998

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER) AND
                 CHIEF FINANCIAL OFFICER
               UNDER SECRETARY OF DEFENSE (PERSONNEL AND
                 READINESS)
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE

SUBJECT: Audit Report on Internal Controls and Compliance With Laws and Regulations for
         the DOD Military Retirement Trust Fund Financial Statements for FY 1997
         (Report No. 98-171)


        We are providing this audit report for your information and use. The Chief Financial
Officers Act of 1990, as amended by the Federal Financial Management Act of 1994, requires
facial   statement audits by the Inspector General and prescribes the responsibility of
management and the auditors for the financial statements, internal controls, and compliance
with laws and regulations.

        On June 4, 1998, we issued an unqualified audit opinion on the FY 1997 DOD Military
Retirement Trust Fund Financial Statements. We identified no internal control wealaoesses or
instances of noncompliance with laws and regulations that materially affect the financial
statements. However, we found certain internal control weaknesses and noncompliances that
were not material to the financial statements, but merit management attention. Management
was cooperative and has taken actions to resolve the weaknesses. Part I includes separate
sections on internal controls and compliance with laws and regulations. Part II provides
relevant appendixes for management use. Appendix D includes the FY 1997 Financial
Statements of the Military Retirement Trust Fund.

        We appreciate the courtesies extended to the audit staff. Questions on the audit should
be directed to Mr. David F. Vincent at (703) 604-9110 (DSN 664-9110) or e-mail
DVincent@dodig.osd.mil, or Mr. Thomas J. Winter at (703) 604-9134 (DSN 664-9134) or
e-mail TWinter@dodig.osd.mil.     If management requests, we will provide a formal briefing
on the audit results. See Appendix G for the report distribution. A list of audit team members
is on the inside back cover.




                                            Robert J .’Lieberman
                                         Assistant Inspector General
                                                 for Auditing
                          Office of the Inspector General, DOD

Report No. 98-171                                                            June 30,1998
   (Project No. 7FW2039.01)


             Internal Controls and Compliance With Laws and
          Regulations for the DOD Military Retirement Trust Fund
                      Financial Statements for FY 1997

                                 Executive Summary

Introduction.   Public Law 101-576, the “Chief Financial Officers Act of 1990,”
November 15, 1990, as amended by Public Law 103-356, the “Federal Financial
Management Act of 1994, n October 13, 1994, requires an annual audit of the financial
statements of the DOD Military Retirement Trust Fund (the Fund). The Fund’s
financial statements for FY 1997 reported total assets of $143 billion, investments of
$139 billion, and a future funding requirement of $501 billion. The Fund manager is
the Deputy Under Secretary of Defense (Program Integration) who reports to the Under
Secretary of Defense (Personnel and Readiness). The Defense Finance and Accounting
Service (DFAS) administers the Fund from the DFAS Cleveland Center, Cleveland,
Ohio, and the DFAS Denver Center, Denver, Colorado. The Fund manager and
DFAS management are responsible for establishing internal controls and for
compliance with laws and regulations.

Audit Objectives. The overall objective of our audit was to determine whether the
Fund’s Financial Statements for FY 1997 were presented fairly and in accordance with
Office of Management and Budget (OMB) Bulletin No. 94-01, “Form and Content of
Agency Financial Statements, n November 16, 1993, as modified by OMB Bulletin
No. 97-01, “Form and Content of Agency Financial Statements,” October 16, 1996.
In addition, we assessed the internal controls and compliance with laws and regulations
related to the financial statements. See Appendix A for a discussion of the audit scope
and methodology.

Unqualified    Opinion. On June 4, 1998, we issued an unqualified opinion on the
Fund’s Financial Statements for FY 1997. In our opinion, the Principal Statements,
including the Notes to the Principal Statements, present fairly, in all material respects,
the assets, liabilities, and net financial position of the Fund for FY 1997, and the
results of operations and changes in net position, in accordance with DOD accounting
policies and procedures and generally accepted accounting principles. Appendix C of
this report includes our opinion and Appendix D includes the Fund’s Financial
Statements for FY 1997.

Change in Accounting Method. In FY 1997, the Fund changed its method of
accounting for the actuarial liability to comply with the Statement of Federal Financial
Accounting Standards No. 5, “Accounting for Liabilities of the Federal Government, *
December 20, 1995.

Internal Controls.    Overall, management has established sound internal controls over
the Fund’s activities. Internal controls ensure that financial statements are not
materially misstated and that management complies with laws and regulations.
laws and regulations. However, management reported one uncorrected material
internal control weakness at the DFAS Cleveland Center as defined by DOD Directive
5010.38, “Management Control Program,” August 26, 1996. The DFAS Cleveland
Center had reported the weakness in its FY 1995 Annual Statement of Assurance,
stating that data in the retired pay system had not been reconciled with data in the
Military Departments’ personnel systems. Corrective action will be completed in
FY 1998.

We reviewed over 600 military personnel files to test the accuracy of source documents
used to determine the Fund’s liability. The delay in acquiring data, as well as the
extensive coordination and evaluation, contributed to the delay in rendering the
financial statement opinion. In addition, we did not receive a legal representation letter
until April 8, 1998, which also hindered our ability to issue reports.

Our statistical sample of data on 4.3 million participants, which includes military
retirees, survivor annuitants, active-duty and reserve personnel, showed that the
Actuarial Accrued Liability was overstated by $4.5 billion and understated by an
estimated $2.6 billion, for an estimated net overstatement of $1.9 billion out of a
reported $641.7 billion. The overstatement is not material to the Fund’s financial
statements. The Actuary confirmed that the overstatement is the result of a systemic
error in the database and an error in the input file used to project survivor benefits.
The Actuary has taken action to resolve the systemic error, and will correct the input
file error.

We recomputed payments to retirees and survivor annuitants and did not identify any
systemic problems in the Defense Retiree and Annuitant Pay System. We also
followed up on a reportable condition concerning the erroneous calculation of the
high-3 average base pay years for retirees. Because the reportable condition is the
result of not applying the provisions, no systemic problem exists that affects our
opinion. Our work also showed that the financial management system used to compile
the Fund’s FY 1997 Financial Statements did not meet the requirements of the Federal
Financial Management Improvement Act of 1996 because of nonintegration and lack of
compliance with the U.S. Government Standard General Ledger. Finally, we
conducted a separate audit on computer application controls over the Defense Retiree
and Annuitant Pay System and determined that existing errors would not materially
affect the Fund’s Financial Statements.

Compliance With Laws and Regulations. We reviewed compliance with laws and
regulations pertaining to the accuracy of the financial statements. Our tests did not
disclose any material noncompliance affecting the financial statements. Except for the
noncompliances described above, management complied in all respects with the laws
and regulations we reviewed. With respect to items not tested, nothing came to our
attention that caused us to believe that the Fund had not complied, in all material
respects, with applicable laws and regulations. Part I.B. is our report on compliance
with laws and regulations. Part II, Appendix F, lists the laws and regulations we
reviewed.

Management Comments. We provided a draft of this report on June 12, 1998.
Because this report contains no findings or recommendations, formal written comments
were not required, and no formal comments were received. Therefore, we are
publishing this report in final form.
Table of Contents


Executive Summary

Part I. - Audit Results
      Audit Background
      Audit Objectives

Part I. A. - Review of Internal Controls
      Introduction                                              6
      Reportable Conditions                                     7

Part I. B. - Review of Compliance With Laws and Regulations
      Introduction                                              14
      Reportable Conditions                                     14

Part II. - Additional Information
      Appendix A. Audit Process
                  Scope
                  Methodology
                  Statistical Sampling Methodology
      Appendix B. Prior Audit Reports
      Appendix C. Audit Opinion
      Appendix D. Financial Statements
      Appendix E. Management and Legal Representation Letters
      Appendix F. Laws and Regulations Reviewed
      Appendix G. Report Distribution
I. - Audit Results
Audit Background
    Introduction. This audit was performed as part of our effort to meet the
    requirements of Public Law 101576, the “Chief Financial Officers Act of
     1990,” November 15, 1990, as amended by Public Law 103-356, the “Federal
    Financial Management Act of 1994,” October 13, 1994. The legislation
    requires financial statement audits by the Inspectors General and prescribes the
    responsibility of management and the auditors for the fiaancial statements,
    internal controls, and compliance with laws and regulations. Management is
    responsible for establishing and maintaining an internal control structure and for
    complying with laws and regulations applicable to DOD financial accounting and
    reporting. Our responsibility is to render an opinion on the financial
    statements, and to determine whether internal controls are adequate and whether
    the entity complied with laws and regulations.

    Accounting Principles. The Military Retirement Trust Fund (the Fund)
    Financial Statements for FYs 1997 and 1996 were to be prepared in accordance
    with the Office of Management and Budget (OMB) Bulletin No. 94-01, “Form
    and Content of Agency Financial Statements, n November 16, 1993, as modified
    by OMB Bulletin No. 97-01, “Form and Content of Agency Financial
    Statements,” October 16, 1996. Footnote 1 of the Fund’s Financial Statements
    for FYs 1997 and 1996 discusses the significant accounting policies used in
    preparing the financial statements.

    Change in Accounting Method. In FY 1997, the Fund changed its method of
    accounting for the actuarial liability as described in Note 1 of the facial
    statements. Actuarial liability will be reported as of the end of the fucal year,
    using the “projected benefit obligation” cost method. This change is in
    accordance with the Statement of Federal Financial Accounting Standards
    No. 5, “Accounting for Liabilities of the Federal Government,”
    December 20, 1995.

    Unqualified Audit Opinion. On June 4, 1998, we issued an unqualified
    opinion on the Fund’s Financial Statements for FY 1997. In our opinion, the
    Principal Statements, including the Notes to the Principal Statements, present
    fairly, in all material respects, the assets, liabilities, and net financial position of
    the Fund for FYs 1997 and 1996, and the results of operations and changes in
    net position for FYs 1997 and 1996, in accordance with the accounting
    principles described in Part II, Appendix A. Part II of our report includes the
    audit opinion and financial statements.

    Fund Admhistration. In April 1995, DFAS consolidated the military retiree
    and annuity pay systems and operations into the Defense Retiree and Am&ant
    Pay System (DRAS) at the DFAS Cleveland Center, Cleveland, Ohio, and the
    DFAS Denver Center, Denver, Colorado. The DFAS Cleveland Center
    establishes and maintains retiree accounts, and the DFAS Denver Center
    establishes and maintains survivor annuitant accounts. The DRAS is the
    standard DOD system that gathers, stores, and processes data required to
    generate and account for payroll for all DOD military retirees, former spouses of
    these retirees, and survivor benefit plan annuitants. The DoD Office of the
    Actuary (the Actuary) determines the funding requirements for the Fund. Based


                                           2
     on those requirements, the Investment Trust Fund Directorate, Accounting
     Deputate, DFAS, monitors the contributions that the Military Departments and
     the U.S. Treasury make to the Fund and invests those contributions in
     market-based U.S. securities.

Audit Objectives
     The overall objective of our audit was to determine whether the FY 1997
     financial statements of the Fund are presented fairly and in accordance with
     OMB Bulletin No. 94-01, as modified by OMB Bulletin No. 97-01. We also
     evaluated internal controls and compliance with laws and regulations as they
     relate to the financial statements. Part II, Appendix A, gives the audit scope
     and methodology, standards, and accounting principles.




                                         3
Part I. A. - Review of Internal Controls
Review of Internal Controls


Introduction
      Audit Responsibilities.   The audit objective was to determine whether controls
      over transactions supporting the accounts in the Fund’s FY 1997 Financial
      Statements were adequate to ensure that the accounts were free of material
      error. In planning and performing our audit of the Fund for the year ended
      September 30, 1997, we evaluated the established internal controls. The
      purposes of this evaluation were to:
              0 determine our auditing procedures for rendering an opinion on the
                financial statements; and
              l   determine whether an internal control structure had been established.

      That determination included obtaining an understanding of the internal control
      policies. and procedures, as well as assessing the level of control risk relevant to
      all significant cycles, classes of transactions, and account balances. For those
      significant control policies and procedures that had been properly designed and
      placed in operation, we performed sufficient tests to provide reasonable
      assurance that the controls were effective and working as designed. For areas
      where internal controls were determined to be weak, we performed tests to
      determine the level of assurance that could be placed on those controls.

      Management      Responsibilities. As the Chief Financial Officer, the Under
      Secretary of Defense (Comptroller) oversees all financial management activities
      for DOD programs and operations, including the accounting functions of DFAS.
      The Military Departments, Defense agencies, and DoD field activities are
      responsible for managing their operations. Establishing and maintaining
      internal controls appropriate to the entity is an important management
      responsibility. The objectives of internal controls are to provide management
      with reasonable, not absolute, assurance that:

                  transactions are properly recorded and accounted for to permit the
                  preparation of reliable financial statements and to maintain
                  accountability over assets;

                  funds, property, and other assets are safeguarded against waste, loss,
                  unauthorized use, and misappropriation; and

                  transactions, including those related to obligations and costs, are
                  executed in compliance with laws and regulations that could have a
                  direct and material effect on the financial statements, and with any
                  laws and regulations that OMB, DOD, or the Inspector General (IG),
                  DOD, have identified as being significant and for which compliance
                  can be objectively measured and evaluated.

      Internal Control Elements.      The purpose of our review was to evaluate the
      internal controls and issue a report on the results. The three elements of
      controls are the control environment, accounting and related systems, and
      control procedures. The control environment is the collective effect of various
      factors on establishing, enhancing, or mitigating the effectiveness of specific
      policies and procedures. Such factors include management’s philosophy and
                                                         Review of Internal Controls


    operating style, the entity’s organizational structure, and personnel policies and
    practices. The control environment reflects the overall attitude, awareness, and
    actions of management concerning the importance of controls and the emphasis
    placed on them by the entity. Accounting and related systems are the methods
    and records established to identify, assemble, analyze, classify, record, and
    report on the entity’s transactions and to maintain accountability for the related
    assets and liabilities. Control procedures are the policies and procedures, in
    addition to the control environment and the accounting and related systems,
    which management has established to provide reasonable assurance that specific
    objectives will be achieved.


Reportable Conditions
    Reportable conditions are matters coming to our attention relating to significant
    deficiencies in the design or operation of the internal controls that, in our
    judgment, could adversely affect the organization’s ability to effectively control
    and manage its resources and to ensure reliable and accurate facial
    information for use in managing and evaluating operational performance. A
    material weakness is a reportable condition in which the design or operation of
    the internal controls does not reduce to a relatively low level the risk that errors
    or irregularities could occur. Such errors would be in amounts that would be
    material to the statements being audited, or material to a performance measure
    or aggregation of related performance measures, and would not be detected in a
    timely manner by employees in the normal course of performing their functions.
    Our consideration of internal controls would not necessarily disclose all
    reportable conditions and would not necessarily disclose all reportable
    conditions that are material weaknesses.

    Management Acknowledgment of Reportable Conditions. In the FY 1997
    Annual Statement of Assurance, DFAS reported one uncorrected material
    internal control weakness for the Fund. DFAS had initially reported the
    weakness in its FY 1995 Annual Statement of Assurance. The weakness related
    to reconciling the retired pay system to the Services’ Military Department
    personnel systems.

            Weakness in Personnel Systems. The DFAS Cleveland Center had
    reported that data in the DIUS had not been reconciled with the Military
    Department personnel systems. Reconciliations would assist in resolving errors
    in data elements and in identifying fraudulent or erroneous accounts. In the
    FY 1997 Annual Statement of Assurance, the DFAS Cleveland Center reported
    the reconciliation weakness as an uncorrected material internal control weakness
    to be corrected in FY 1998. During FYs 1996 and 1997, the DFAS Cleveland
    Center submitted personnel data on retirees to the Army, the Air Force, and the
    Marine Corps for reconciliation with the personnel systems. In FY 1997, the
    DFAS Cleveland Center submitted retiree data to the Navy for reconciliation
    with the Navy personnel system. In discussions with DFAS Cleveland Center
    personnel, we determined that the DFAS Cleveland Center’s corrective action
    was adequate and should correct the weakness when fully implemented. In
    future audits, we will continue to monitor the status of this material weakness
    and its effect on the Fund’s Financial Statements.
Review of Internal Controls


      This is a material weakness, as defined by DOD Directive 5010.40,
      “Management Control (MC) Program Procedures,” August 28,1996. This
      weakness is reportable under DOD Directive 5010.38, “Management Control
      Program,” August 26, 1996, and OMB Bulletin No. 93-06, “Audit
      Requirements for Federal Financial Statements,” January 8, 1993. However,
      the weakness did not materially affect the Fund’s FY 1997 Financial
      Statements. During our review of internal controls at the DFAS Cleveland
      Center and our recomputation of the payments made by the Fund to 60 retirees
      and 60 am&ants, we did not identify any significant errors in the DRAS data
      indicating that the material internal control weakness, as reported in the DFAS
      Cleveland Center’s FY 1997 Annual Statement of Assurance, materially
      affected the Fund’s FY 1997 Financial Statements.

      Computer Application Controls. A separate IG, DOD, “Audit of Selected
      Application Controls Over the Defense Retiree and Ann&ant Pay System,”
      (Project No. 8FG-SOlO), is being conducted to evaluate application controls
      over the DRAS and ensure that the system produces authorized, accurate,
      complete, and reliable data. The preliminary results of this audit show that
      unauthorized activity could occur and may not be detected in a timely manner in
      order to prevent misstatements in the Fund’s Financial Statements. However,
      tests of the Fund’s management controls did not detect material misstatements.
      The preliminary results of this audit and the following procedures and controls
      lead us to believe that data from the DlUS are reliable.

                     l   DFAS is developing procedures to detect the existence of
                         invalid retiree pay accounts by matching pay and personnel
                         records for retiree pay.

                     l   In 386 cases tested, the existence of edit and validation
                         controls was evident.

      The following additional tests strengthen our belief that no systemic problems
      exist in the Fund that would cause a material misstatement.

                     l   Recomputation of retiree and annuitant monthly payments on
                         over 700 individuals, from FY 1991 to FY 1992 and from
                         FY 1995 to FY 1997, did not reveal any systemic problems.

                     l   In Operation Mongoose, a fraud detection project, auditors
                         visited nine foreign countries to verify the existence of retired
                         military and civilian DOD employees and their surviving
                         dependents who were receiving payments. Based on the
                         reviews, pay accounts were suspended from November 1996
                         through June 1997. As of August 1997, 85 to 95 percent of
                         the suspended accounts had been reactivated. The DFAS
                         Cleveland Center did not identify any material internal control
                         weaknesses based on those reviews.

                     l   The DFAS Cleveland Center compiles daily and monthly
                         exception reports to identify unusual payments.




                                            8
                                                      Review of Internal Controls


               l   Reconciliations between records of the Department of
                   Veterans Affairs and retiree records in the DRAS are
                   performed annually to verify that payment and death
                   notification data from the Department of Veterans Affairs are
                   properly reported in the DRAS.

               l   Reconciliations between Social Security Administration
                   records and retiree records on the DRAS are performed
                   quarterly to identify retirees who are believed to be deceased.

               l   Comparisons between the DRAS and the activeduty military
                   pay system are performed monthly to identify individuals who
                   receive both retired and active-duty pay.

Overstatement in Actuarial Accrued Liability. The participant data used by
the Actuary to forecast the $641.7 billion Actuarial Accrued Liability, and the
effect on Other Expenses ($15.9 billion for the Fund’s FY 1997 Financial
Statements), were generally accurate. However, our opinion was not affected
by the net estimated overstatement of $1.9 billion because our materiality
threshold for the Actuarial Accrued Liability was $6.4 billion. The net
overstatement of $1.9 billion was derived from

               l   a complete actuarial review of retiree records to arrive at the
                   overstatement of $4.5 billion, and

               l   a projection by the IG, DOD, statistician for an estimated
                   understatement of $2.6 billion.

         Actuarial Overstatement. The Actuary’s complete evaluation of the
retiree database identified a $4.5 billion overstatement related to the retiree
Survivors Benefit Program (SBP) election. The SBP provides annuities to the
retirees’ spouses and families on the retirees’ death. The $4.5 billion
overstatement has two causes, as indicated below.

               l   The data input fde to the computer module for the Actuarial
                   liability projection caused an overstatement of $2.6 billion.
                   This overstatement occurred because the input file included
                   potential survivors who did not exist. The error occurred
                   because the input file mistakenly assumed that retirees with
                   survivor benefits who had lost a spouse beneficiary (e.g.,
                   through death) still had an eligible spouse. The input file is
                   controlled by the Actuary, and action is under way to correct
                   the problem.

               l   The additional $1.9 billion overstatement was caused by
                   coding errors when retirees declined SBP coverage at
                   retirement. The database shows an eligible beneficiary
                   although no beneficiary coverage was elected, causing the
                   Actuary to incorrectly project a future liability.

We determined that the Actuary received incorrect SBP codes for retirees who
declined coverage or who no longer had an eligible spouse beneficiary. We did
not determine whether the coding errors occurred at the DFAS Cleveland


                                     9
Review of Internal Controls


      Center or the Defense Manpower Data Center. The coding errors occurred
      during the data transfer, causing the Actuary to receive inaccurate data. The
      Actuary took immediate action to establish a Memorandum of Understanding
      between the three parties to identify and resolve the problem. Based on the
      supporting documents we reviewed at the DFAS Cleveland Center, we
      concluded that SBP coverage was properly recorded in DRAS. The DRAS
      accurately reported that retirees had declined coverage or had no beneficiary
      currently eligible for SBP. Because of the application error in the data input file
      used by the Actuary and the coding errors in the SBP election, the Actuary’s
      data input fne erroneously classified the following as having spouses:

                      l   retirees who declined coverage, and

                      l   retirees who no longer had eligible beneficiaries.

       As a result, the model inappropriately forecasted larger future benefits, causing
       the total overstatement of $4.5 billion.

               Statistical Understatement.    The IG, DOD, statistician projected an
      estimated Accrued Liability understatement of $2.6 billion, based on errors that
      we identified in the statistical sample of 600 individuals eligible for payments
      from the Fund. The $2.6 billion represents the IG, DOD, statistician’s
      projection to the entire universe of 4.3 million Fund participants. We
      determined that those errors were not attributable to any systemic error and did
      not have a material effect on the financial statements. Appendix A discusses the
      statistical sample.

      Stat&&al Internal Control Assessment. We considered the IG, DOD,
      statistician’s results to assess the adequacy of internal controls over the
      participants data and conclude we can rely on the controls. As specified in
      Appendix A, the statistical sample showed that an estimated 8.1 percent of the
      sample items contained at least one error in a data element, and an estimated
      7.5 percent contained a data element that was unsupported. If a record
      contained both an unsupported and an error item, the item was counted only as
      an error, providing a conservative approach to the results. The statistical results
      indicate that moderate reliance can be placed on the controls to ensure the
      accuracy of the data reported for each element. Although the sample results
      indicated that only moderate reliance could be placed on the controls, the
      statistical estimate of the dollar effect of those errors on the actuarial liability
      reported on the Fund’s financial statements was not material, even though the
      controls were assessed at the level of moderate risk.

       The errors in the data elements do not have a material effect on the actuarial
       liability because the projection module uses a hierarchy of data elements to
       estimate the actuarial liability and many of the elements have no or only a
       negligible impact on the actuarial liability. As a result, the frequency of data
       element errors is mitigated and does not adversely effect the estimate. We
       determined that those errors were not attributable to any systemic error and did
       not have a material effect on the estimate of the actuarial liability. As a result,
       the errors did not indicate a material management control weakness.




                                             10
                                                     Review of Internal Controls


We also considered the following factors in our assessment of internal controls.

                  The results of our substantive tests for this year and prior
                  year’s did not disclose any material misstatements in the
                  Fund’s Financial Statements.

                  An unsupported item is not automatically wrong. During our
                  data collection, we found that accurate support was available
                  for data elements, but not expeditiously in some cases. We
                  considered the cost and benefit to further reduce the
                  unsupported items identified at the 7.5 percent level. We
                  conclude that the benefit to reduce the percentage would not
                  be cost effective or warranted based on the expected results.

                  Many of the errors we did identify had no material effect on
                  the financial statements. In the majority of data errors, the
                  Actuary determined that there was no dollar impact on the
                  liability. We would expect that many of the 8.1 percent errors
                  would have similar results.

Based on the above factors, we conclude internal controls are adequate to
prevent a material misstatement of the Fund’s Financial Statements.

Corrective Action. We determined that the Actuary has taken the action
necessary to establish a Memorandum of Understanding between the DFAS
Cleveland Center and the Defense Manpower Data Center to identify and
correct the problem; we did not determine where the problem originates. In
addition, the Actuary has acknowledged the problem with the input file to the
computer projection module for participants in suspended beneficiary status, and
has agreed to modify the system. Future audits of the Fund will follow up on
the results of this corrective action.

Computations of Payments. During the FY 1997 audit, we recomputed 60
retiree and 60 annuitant payments made to individuals by DFAS Centers, using
the same methodology as in prior audits. We did not identify any systemic
errors. We followed up on a reportable condition from FY 1996 concerning the
calculation of the high-3 average base pay years for retirees. The high-3
average base pay calculation applies only to individuals who entered the Service
after 1980. We determined that the FY 1996 errors were caused by
inappropriate application of the saved-pay provisions of 10 U.S.C. 1401a(e), as
repealed by the “DOD Authorization Act, FY 84, n section 92 1, on
September 24, 1983. The saved-pay provisions allow a one-time review to
determine which calculation of retirement pay is most advantageous to the
Service member. The DFAS Cleveland Center determined that saved pay
provisions were not applied in all cases. Since a limited number of Service
members are affected and DFAS has identified the problem, we concluded that
no systemic problem existed that would materially affect the financial
statements.

Debt Collection Techniques. In prior audit reports, we identified weaknesses
in the debt collection process at the DFAS Cleveland and Denver Centers. We
did not follow up on the previously reported weaknesses because the amounts
involved were well below the materiality threshold. Public Law 97-365, the


                                    11
Review of Internal Controls


       “Debt Collection Act of 1982” October 25, 1982, authorized Federal agencies
       to assess interest, penalties, and administrative charges on debts. Public Law
       104-134, the “Debt Collection Improvement Act of 1996,” April 26, 1996,
       transferred old debts to the Department of the Treasury for collection. We
       continue to monitor the corrective actions initiated by DFAS.




       Overall, internal controls for the Fund were working as designed. Although we
       identified a control weakness in the system used to project the actuarial accrued
       liability, internal controls were adequate and effective and identified any
       potential problems that could materially affect the financial statements. We are
       not making a recommendation concerning the systemic problem with the
       actuarial accrued liability because the Actuary has taken action to establish a
       Memorandum of Understanding with the DFAS Cleveland Center and the
       Defense Manpower Data Center to identify and correct this problem. The
       Actuary is also modifying the input file to the projection module.




                                           12
Part I. B. - Review of Compliance With
Laws and Regulations
Review of Compliance With Laws and Regulations


Introduction

      We evaluated the Fund’s FY 1997 Financial Statements for material instances of
      noncompliance with laws and regulations for FY 1997. Our purpose was not to
      render an opinion on overall compliance with laws and regulations. The Deputy
      Under Secretary of Defense (Comptroller), the Deputy Under Secretary of
      Defense (Program Integration), and the Director, DFAS, are responsible for
      ensuring compliance with laws and regulations applicable to the Fund. As part
      of obtaining reasonable assurance on whether the financial statements are free of
      material misstatements, we tested compliance with the laws and regulations
      listed in Appendix F. Such tests are required by the Chief Financial Officers
      Act of 1990, as amended by the Federal Financial Management Act of 1994.

Reportable Conditions

      Material instances of noncompliance are failures to follow requirements, laws,
      or regulations that would cause us to conclude that the aggregation of the
      misstatements resulting from those failures is either material to the financial
      statements, or that the sensitivity of the matter would cause others to perceive it
      as signifk.ant.

      Title 31, U.S.C. 3512, “Federal Financial Management Improvement Act
      of 1996.” On September 9, 1997, OMB issued a memorandum,
      “Implementation Guidance for the Federal Financial Management Improvement
      Act of 1996” (the FFMIA). The FFMIA requires Federal agencies to
      implement and maintain financial management systems that comply substantially
      with Federal requirements for facial  management systems, applicable Federal
      accounting standards, and the U.S. Government Standard General Ledger at the
      transaction level. The FFMIA also requires that we report on agency
      compliance with these requirements, which are well-established in the following
      Federal policy documents.

                OMB Circular No. A-127, “Financial Management Systems,”
                July 23, 1993, establishes Government policy for developing,
                evaluating, and reporting on financial management systems. It
                requires that financial management systems provide complete,
                reliable, consistent, timely, and useful information. To.achieve this
                goal, DOD and other Federal agencies must establish and maintain a
                single, integrated financial management system using the U.S.
                Government Standard General Ledger.

                OMB Circular No. A-134, “Financial Accounting Principles and
                Standards, n May 20, 1993, establishes policies and procedures for
                approving and publishing financial accounting principles and
                standards. It also establishes the policies that Executive agencies and
                OMB are to follow in seeking and providing interpretations and other
                advice related to the standards.

                The Joint Financial Management Improvement Program is a
                cooperative undertaking of the OMB, the Department of the Treasury,
                and the Office of Personnel Management, working with each other
                and with operating agencies to improve financial management


                                           14
                                Review of Compliance With Laws and Regulations


                throughout the Government. The Joint Financial Management
                Improvement Program has published a series of “Federal Financial
                Management System Requirements. n

            l   The “Core Financial System Requirements,” September 1995, which
                are a part of the Joint Financial Management Improvement Program
                “Federal Financial Management System Requirements,” establish
                standard requirements for the foundation modules of an agency’s
                integrated financial management system. These requirements state
                that a financial management system must support the partnership
                between program and financial managers and assure the integrity of
                information for decisionmaking and measuring performance.

    As part of our audit to obtain reasonable assurance about whether the Fund’s
    FY 1997 Financial Statements were free of material misstatement, we
    performed tests of compliance with certain provisions of laws and regulations
    when noncompliance with these laws and regulations could have a direct and
    material effect on the financial statements. We also tested compliance with
    certain other laws and regulations specified in OMB Bulletin No. 93-06, “Audit
    Requirements for Federal Financial Statements, * January 8, 1993, as modified
    by OMB Bulletin No. 98-04, “Addendum to OMB Bulletin No. 93-06,”
    January 16, 1998. In planning and performing our tests of compliance, we
    considered the implementation guidance issued by OMB on September 9, 1997,
    relating to the FFMIA.

    Federal Financial Management Improvement Act of 1996. Under the
    FFMIA and OMB Bulletin No. 93-06, “Audit Requirements for Federal
    Financial Statements,” January 8, 1993, as modified by OMB Bulletin
    No. 98-04, “Addendum to OMB Bulletin No. 93-06,” January 16, 1998, our
    work disclosed that financial management systems did not fully comply with
    Federal requirements for integrated financial management systems and the U.S.
    Government Standard General Ledger at the transaction level. The facial
    management systems used to compile figures for three line items (Contributions,
    Investments and Disbursements) on the Fund’s FY 1997 Financial Statements
    were not integrated or transaction-based. In addition, the Fund’s accounting
    system’s general ledger used to compile the facial     statements was not
    transaction-based or derived from an integrated financial management system.
    However, the noncompliance with the FFMIA did not affect the reliability of
    the data in the Fund’s facial    statements. Finally, the Trust Fund Accounting
    System used to compile the FY 1997 Military Retirement Trust Fund Financial
    Statements, which is compliant with the U.S. Standard General Ledger, obtains
*   data from the Centralized Expenditure/Reimbursement Process system and the
    General Accounting and Finance System. These two feeder systems are
    partially compliant with the requirements of the U.S. Government Standard
    General Ledger.

    Legal Representation Letter. Management did not fully comply with the
    Federal Financial Management Act of 1994, which required the submission of
    audited financial statements to OMB by March 1, 1998. For the auditors to
    render an unqualified opinion, the financial statements must be supported by a
    legal representation letter. The Fund’s management provided us with a legal
    representation letter on April 8, 1998; therefore, we could not fulfill the
    requirements of the OMB guidance. However, the late receipt of the legal


                                        15
Review of Compliance With Laws and Regulations


      representation letter and our inability to fulfill OMB guidance did not prevent us
      from issuing au unqualified opinion. We are rendering this unqualified opinion
      based on our review of the Principal Statements and the Notes to the Principal
      Statements of the Military Retirement Trust Fund for FY 1997.

      Compliance Issues. The results of our tests indicate that, with respect to the
      items tested, the Fund complied in all material respects with the provisions
      referred to above. With respect to items not tested, nothing came to our
      attention that caused us to believe that the DOD Components operating the Fund
      had not complied, in all material respects, with the provisions identified above.




                                         16
Part II. - Additional Information
Appendix A. Audit Process

Scope

    Statements Reviewed. We examined the Principal Statements and the Notes to
    the Principal Statements of the Fund for FYs 1996 and 1997. The Principal
    Statements include the Statement of Financial Position and the Statement of
    Operations and Changes in Net Position. Also included are the Footnotes,
    Overview, and Supplemental Information. Our opinion is based on the
    Principal Statements dated February 27, 1998.
    Sample of Participant Data. To comply with the audit and accounting guide
    issued by the American Institute of Certified Public Accountants, “Audit of
    Employee Benefit Plans, n May 1, 1996, we evaluated participant data. The
    Actuary uses the participant data to estimate the actuarial accrued liability for
    the Fund. We used a statistical sample of 600 participants to test the validity of
    the data, for 4.3 million individuals, including retirees, survivors, reservists,
    and active-duty personnel. Because participants’ records were stored in many
    locations throughout the United States, obtaining data for the sample required
    several months of extensive effort. The additional time required to collect and
    evaluate the data was a reason for delay in issuing this report and the audit
    opinion.

    Accounting Principles. Accounting principles and standards for the Federal
    Government are under development. The Federal Accounting Standards
    Advisory Board was established to recommend Federal accounting standards to
    three officials for approval. Those three officials are the Director, OMB; the
    Secretary of the Treasury; and the Comptroller General of the United States.
    The Director, OMB, and the Comptroller General issue standards agreed on by
    the three officials. To date, seven Accounting Standards and two Accounting
    Concepts have been published in final form. Accounting Standard No. 8 has
    been approved by the Federal Accounting Standards Advisory Board, but must
    be reviewed before it is issued. In addition, the Federal Accounting Standards
    Advisory Board issued an exposure draft, “Amendments to Accounting for
    Property, Plant, and Equipment,” February 13, 1998, proposing amendments to
    Accounting Standards No. 6 and No. 8. These standards and concepts
    constitute generally accepted accounting principles for the Federal Government.
    OMB Bulletin No. 94-01, as supplemented by OMB Bulletin No. 97-01,
    incorporates these standards and concepts and should be used by Federal
    agencies to prepare financial statements. The following table lists the
    “Statements of Federal Financial Accounting Standards and Concepts.”




                                        19
Appendix A. Audit Process




             Statements of Federal Financial Accounting Standards and Concepts

        %iz2                                                                   Fiscal Year
       and Concerts                       Title                       status   Effective

       Standard No. 1     Accounting for Selected Assets and          Final       1994
                          lkibilities, March 30,1993

       Standard No. 2     Accounting for Direct Loans and             Final       1994
                          Loan Guarantees. August 23, 1993

       Standard No. 3     Accounting for Inventory and Related        Final       1994
                          property, October 27, 1993

       Standard No. 4     Managerial Cost Accuunting Concepts         Final       1998
                          and Standards for the Federal Government,
                          July 31.1995

       Standard No. 5     Account& for Liabilities of the             Final       1997
                          Federal Government, December 20,1995

       Standard No. 6     Accounting for property, Plant, and         Final’      1998
                          Equipment, November 30, 1995

       Standard No. 7     Acunmhg for Revenue and Other               Final       1998
                          Financii Sources, May 10, 1996

       Standard No. 8     Supplementaq Stewardship Reporting,     Approved*
                          June 11, 1996

       Concept No. 1      Objectives of Federal Financial             Fhl
                          l@Kxtiog, September 2, 1993

       Concept No. 2      Entity and Display, June 6, 1995            Final

      CThe Federal Accounting Standards Advisory Board has issued an exposure draft, ‘Amendment ‘
      D Accounting for Property, Plant, and Equipment,” Febwuy 13,1P98. The exposure draft
      XXI&U proposed amendments to Standards No. 6 and No. 8.


      Through FY 1997, agencies were required to follow the hierarchy of accounting
      principles outlined in OMB Bulletin No. 9461, as supplemented by OMB
      Bulletin No. 97-01. The FY 1997 hierarchy includes:

                 standards agreed to and published by the Director, OMB; the
                 Secretary of the Treasury; and the Comptroller General of the United
                 states;

                 requirements for the form and content of financial statements outlined
                 in OMB Bulletin No. 94-01, as modifkd by OMB Bulletin
                 No. 97-01;
                 accounting standards contained in agency accounting policy,
                 procedures, or other guidance as of March 29, 1991; and

                 accounting principles published by other authoritative sources.


                                                  20
                                                        Appendix A. Audit Process


    Review of Internal Controls. An audit includes examining, on a test basis,
    evidence supporting the amounts and disclosures in financial statements,
    including the accompanying notes. An audit also includes assessing the
    accounting principles used and significant estimates made by management, as
    well as evaluating the overall presentation of the statements. We reviewed
    aspects of the Fund’s internal controls and obtained an understanding of the
    internal control policies and procedures related to accounting systems, Fund
    Balance With Treasury, accounts receivable, accounts payable, pensions and
    other actuarial liabilities, revenues, expenses, and the preparation of the
    financial statements. Specifically, we recomputed retiree and annuitant pay;
    evaluated participants data; tested Investments and Contributions to the Fund;
    and tested internal controls. We followed up on internal control weaknesses,
    identified during the audit of the Fund for FY 1996, regarding retiree payment
    computations and the debt collection issues. Our consideration of the internal
    controls would not necessarily disclose all matters that might be reportable
    conditions, and would not necessarily disclose all reportable conditions that are
    also considered material weaknesses.

    Review of Compliance With Laws and Regulations. Compliance with laws
    and regulations is the responsibility of Fund managers and DFAS managers. To
    obtain reasonable assurance that the Fund’s FY 1997 Financial Statements were
    free of material misstatements, we reviewed compliance with laws and
    regulations that may directly affect the financial statements, and with other laws
    and regulations designated by OMB and DOD. Appendix F lists the laws and
    regulations we reviewed.


Methodology
    Auditing Standards. We conducted this financial statement audit in
    accordance with generally accepted Government auditing standards issued by the
     Comptroller General of the United States as implemented by the IG, DOD, and
     OMB Bulletin No. 93-06, “Audit Requirements for Federal Financial
     Statements, n January 8, 1993, as supplemented. Those standards require that
     we plan and perform the audit to obtain reasonable assurance about whether the
    principal statements are free of material misstatements. We relied on the
    guidelines suggested by the General Accounting Office and our professional
    judgment in assessing the materiality of matters affecting the fair presentation of
    the facial    statements and related internal control weaknesses.

    Computer-Processed Data. To achieve our audit objective, we relied on
    computer-processed data. To evaluate selected application controls over the
    DRAS, a separate IG, DOD project, Project No. 8FG-5010, was conducted.
    The audit results did not identify unauthorized activity, but will recommend
    implementing controls to increase managers’ confidence in the authorization,
    accuracy, completeness, and reliability of retiree payments. By comparing
    retiree and annuitant data in the DRAS to source documents, we determined that
    the DRAS data were valid and accurate. By recomputing the pay based on
    source documents, we also determined that the DRAS accurately computed the
    monthly gross pay for those retirees and annuitants. The sample of participant
    data was selected from the database that the Defense Manpower Data Center
    provided to the Actuary in order to estimate the actuarial accrued liability.


                                        21
Appendix A. Audit Process




      The Defense Manpower Data Center obtained the data from the Military
      Department active duty and reserve personnel systems and the DRAS. To
      recompute, on a test basis, the FY 1997 contributions that the Military
      Departments were required to make to the Fund, we relied on the base pay data
      in the Military Department pay systems. We accepted the base pay amounts as
      reported in the pay systems; we did not test the systems. We also reconciled the
      contributions, as reported by the Military Departments, to the Fund’s FY 1997
      Financial Statements.

      Audit Period and Locations. The audit was conducted from June 1997
      through March 1998 at DFAS, Arlington, Virginia; the DFAS Cleveland
      Center, Cleveland, Ohio; the DFAS Denver Center, Denver, Colorado; and the
      National Personnel Records Center, St. Louis, Missouri.

     Representation Letters. On January 21, 1998, we received a management
     representation letter from the Office of the Under Secretary of Defense
     (Personnel and Readiness), regarding the Fund’s FY 1997 Financial Statements.
     The letter stated that the Office of the Under Secretary of Defense (Personnel
     and Readiness) had made available all records and had either represented or
     disclosed all facts related to or affecting the Fund’s Financial Statements for
     FY 1997. The Office of the Under Secretary of Defense (Personnel and
     Readiness) had nothing to disclose that would preclude the issuing of an
     unqualified opinion. On April 8, 1998, we received a legal representation letter
     from the General Counsel, DFAS. The legal representation letter stated that
     there were no known or pending legal matters affecting the Fund. Part II,
     Appendix E, contains the management and legal representation letters.

     Contacts During the Audit. We visited or contacted individuals and
     organizations within the DOD and the National Personnel Records Center,
     St. Louis, Missouri. Further details are available on request.


Statistical Sampling Methodology
     Sampling Purposes. In support of this Chief Financial Officer Act audit, the
     purposes of the statistical sampling were to provide quantitative evidence for two
     audit determina tions: the fair representation of the dollar value of the Pensions and
     Other Actuarial Liabilities line [5 b(4)] of the Fund’s FY 1997 Financial
     Statements, and the adequacy of internal controls for this line. For the
     determination of fair representation, we statistically estimated the total net dollar
     misstatement of the reported value for the line. To assess the adequacy of internal
     controls, we statistically estimated the overall percentage of individuals with
     erroneous information in their records and, separately, the overall percentage with
     unsupported information in their records.

     Sampling Frame. The frame for our statistical sampling included 4,256,832
     individuals’ records with a total reported value, as of September 30, 1997, of
     $64 1.9 billion for Pensions and Other Actuarial Liabilities. These individuals
     comprised four subpopulations:



                                           22
                                                              Appendix A. Audit Process


                        l   Retirees, 1,654,386 individuals, $408.6 billion;

                        l   Survivors, 224,385 individuals, $18.1 billion;

                        l   Reservists, 854,830 individuals, $2 1.8 billion; and

                        l   Active Duty, 1,523,231 individuals, $193.4 billion.

      Measures. The net dollar misstatement for an individual’s record was defined as
      the difference between the accrued liability for the individual, calculated using the
      information in the individual’s record, and the corrected accrued liability for the
      individual. Corrections were made for any errors found in the record. These
      corrected values were calculated and provided by the Actuary. No dollar changes
      were made for unsupported information. The percentage of individuals with errors
      in their records was based on errors found in one or more of the critical fields, as
      defined by the Actuary. If no documentation was available for one of the critical
      fields, the record was counted as unsupported. A record with both errors and
      unsupported fields was counted as an error, but was not counted as unsupported.

      Sampling Design. We used a stratified sampling design for this audit. The
      universe was divided into 4 subpopulations with 12 strata, 1 stratum for each of
      the Military Departments for the Retiree and Survivor subpopulations, and officer
      and enlisted strata for the Reserves and Active Duty subpopulations. The sample
      size selections and population sizes for each stratum are listed below:




Reserves - Enlisted                           90              723,838
Active-Duty - Officer                         20              244,618
Active-Duty Enlisted                         160            1,278,613




                                              23
Appendix A. Audit Process




      The sampled records were selected randomly within each stratum.

      Sample Results.    We derived the following statistical estimates of misstatement
      dollar values from our sample data:

                            95-Percent Confidence Intervals

                               Lower Bound           Point Estimate        Upper Bound
Net Misstatement                 - $6.237 billion      - $2.613 billion        $1.011 billion
(excluding SBP)
SBP (loo-percent review                                  $4.529 billion
bYActuary)
Total Net Misstatement           - $1.708 billion        $1.916 billion        $5.540 billion



      We are 95-percent confident that the total net dollar misstatement of the liability in
      our sampling Came is from $1.708 billion understated to $5.540 biion overstated.
      The point estimate of the misstatement’s dollar value is the statistically best
      unbiased single value estimator of the true dollar misstatement for Pensions and
      Other Actuarial Liabilities.

      The Actuary reviewed 100 percent of the retirees with SBP elections after the
      auditors found a problem with the procedures for using this information in the
      calculation of the liability. The Actuary provided the auditors with the corrected
      liability. This was treated as a census stratum, and the results were added to the
      estimate for the net misstatement (excluding the SBP) to determine the total net
      misstatement.

      We also generated the following statistical estimates of misstatement percentages
      from our sample data:



                            95-Percent Confidence Intervals

                                 Lower Bound          Point Estimate       Upper Bound
Records With Errors                    5.7 percent           8.1 percent        10.4 percent
Records With Unsupported               5.4 percent           7.5 percent         9.6 percent
Data


      We are 95-percent confident that from 5.7 percent to 10.4 percent of the records
      in our sampling frame contain one or more errors. Also, we are 95-percent
      confident that from 5.4 percent to 9.6 percent of the records in our sampling Came
      contain one or more unsupported data elements. The point estimates of these
      misstatement percentages are the statistically best unbiased single value estimators
      of the true misstatement percentages for the records with errors and the


                                            24
                                                      Appendix A. Audit Process


unsupported records, respectively. (See pages 10 and 11 of this report for an
assessment of the statistical results and our conclusion that internal controls over
the Fund were adequate to prevent a material misstatement.)
Appendix B. Prior Audit Reports
   IG, DOD, Report No. 97-177, “Internal Controls and Compliance With
   Laws and Regulations for the DOD Military Retirement Trust Fund
   F+inancialStatements for FY 1996,” June 25, 1997. We issued an unqualified
   opinion on the Fund’s FY 1996 Financial Statements. Two internal control
   weaknesses identified in the FY 1995 audit required followup in FY 1996. The
   Fund managers had corrected the internal control weakness concerning whether
   the DFAS Cleveland Center was paying retirees from the correct appropriation.
   The other internal control weakness, related to debt collection at the DFAS
   Cleveland and Denver Centers, had not been corrected. Also, in its FY 1996
   Annual Statement of Assurance, the DFAS Cleveland Center reported one
   uncorrected and one corrected material internal control weakness. The material
   internal control weakness regarding the appointment of trustees for mentally
   incompetent Air Force retirees has been corrected. The other material internal
   control weaknesses, regarding data in the retired pay system that had not been
   reconciled with data in the Services’ personnel systems, was scheduled to be
   corrected in FY 1997. DFAS has extended the implementation to FY 1998.
   No recommendations were made in this report.

   IG, DOD, Report No. 96-169, %temal Controls and Compliance With
   Laws and Regulations for the DOD Military       Retirement Trust Fund
   Financial Statements for FY 1996,” June 19,1996. We issued an unqualified
   opinion on the Fund’s FY 1995 Financial Statements. During the audit, we
   identified internal control weaknesses in debt collection techniques at the DFAS
   Cleveland and Denver Centers and whether retiree disbursements at the DFAS
   Cleveland Center were made from the correct appropriation. During our audit
   of the Fund’s FY 1996 Financial Statements, we did followup work to
   determine whether the DFAS Centers had corrected these weaknesses. We
   reported that the DFAS Cleveland and Denver Centers were not charging
   interest on all retiree and annuitant debts. The DFAS Cleveland Center had
   corrected the internal control weaknesses regarding whether disbursements to
   retirees were made from the proper appropriations. During the audit of the
   Fund’s FY 1995 Financial Statements, we found that internal control
   weaknesses existed at the DFAS Cleveland Center regarding whether
   disbursements were made from the correct appropriation for Service members
   who retired under Public Law 102-484, the “National Defense Authorization
   Act for Fiscal Year 1993,” October 23, 1992, which gives the Services
   temporary early retirement authority to offer early retirements to members with
   more than 15 but less than 20 years of service. In the audit of the Fund’s
   FY 19% Financial Statements, we determined that the DFAS Cleveland Center
   had corrected the retiree payments that were disbursed from the incorrect
   appropriation. No recommendations were made in this report.

   IG, DOD, Report No. 98-098, %elected General Controls Over the Retiree
   and Casualty Pay Subsystem at the Defense Fmance and Accounting
   Service Cleveland Center,” March 30,1998. This was an audit 0f.genera.l
   and application controls of the DRAS. The auditors identified procedures that
   DFAS has implemented for developing and modifying software, separation of
   duties, monitoring the use of software, and establishing procedures to prevent
   disruptions in service. Additional controls are needed for monitoring and
   updating the security program, limiting access to the subsystem, and providing


                                      27
Appendix B. Prior Audits


      for continuity of operations. We recommended that the Director, DFAS
      Cleveland Center, update security documents, monitor access to the
      Subsystems, and establish improved controls over the security of the
      Subsystems. The Deputy Director, DFAS Cleveland Center concurred with the
      recommendations.

      General Accounting Offioe Report No. AIMD-97-128 (OSD Case No. 1411),
      “Review of the Military Retirement Trust Fund’s Actwwial           Model and
      Related Computer Controls,” September 9,1997. The objective of the audit
      was to review the actuarial assumptions, methods, systems, and related controls
      used by the Actuary to calculate the Fund’s pension liability and annual
      actuarial activity for the financial statements and other reporting purposes.
      Based on the procedures performed and the results obtained, we conclude that
      the methodology and actuarial assumptions used by the Actuary to calculate the
      FY 1996 pension liability and the annual actuarial activity for the Fund are
      reasonable and reliable. GAO recommended that the DoD Office of the
      Actuary improve its actuarial process and Electronic Data Processing General
      Controls. The DOD Office of the Actuary concurred with the
      recommendations.




                                        28
Appendix C. Audit Opinion
This appendix (a total of 3 pages) consists of the Audit Opinion on the FY 1997
Financial Statements of the Military Retirement Trust Fund.




                                         29
                              INSPECTOR GENERAL
                             DEPARTMENT OF DEFENSE
                               400 ARMY NAVY DRIVE
                             AFUNGTON. VIRGINIA 22202


                                                                             June 4, 1997

MEMORANDUMFOR UNDER SECRETARYOF DEFENSE (COMPTROLLER)
                AND CHIEF FINANCIAL OFFICER
              UNIXRSZTARY      OF DEFENSE (PERSONNELAND
                          DIREFEtE DEFENSE FINANCE AND ACCOUNTING

SUBJECT: Audit Opinionon the DODMilitary Retirement Trust Fund Finaucial
         Statements for FY 1997 (Project No. WH-2039)

        The Chief Financial Officers (CFO) Act of 1990, as amended by the Federal
Financial Management Act of 1994, requires frpanciaI statement audits by the
Inspectors GeneraI and prescribes the responsibility of management and the auditors for
the financial statements, internal controls, and compliance with laws and regulations.
Management is responsible for establishing and mamtaining internal controls and for
complying with laws and regulations applicable to the Military Retirement Trust Fund
(the Fund). Our responsibility is to render an opinion on the financial statements based
on our audit, and to determine whether internal controls are adequate and whether the
entity complied with laws and regulations.
       Unqualifted Audit Opinion. In our opinion, the Principal Statements,
including the Notes to the Principal Statements, present fairly, in all material res ects,
the assets, liabilities, and net financial position of the DODMilitary Retirement + rust
Fund for FYs 1997 and 1996, and the results of operations and changes in net         ition
for FYs 1997 and 1996, in conformity with the accounting principles descrr-aB”below.
              Change in Accounting Method. In FY 1997, the Fund changed its
method of accounting for the actuarial liability as described in Note 1 of the ftnancial
statements. This liability will now be reported as of the end of the fisca year using the
‘projected benefit obligation” cost method. This change is in accordance with the
OffIce of Management and Budget (OMB) Statement of Federal FinanciaI Accounting
Standards No. 5, “Accounting for Liabilities of the FederaI Government,”
December 20, 19%.
               Accounting Rlnciples. The Military Retirement Trust Fund Financial
Statements for FYs 1997 and 1996 were to be prepared in accordance with OMB
Bulletin No. 94-01, “Form and Content of ency Financial Statements,”
November 16, 1993, as supplementedby 0 % Bulletin No. 9741, “Form and Content
of Agerzy Financial Statements,” October 16.1996. These bulletins irmrporate the
Statements of FederaI Financial AccouDtingC&rtfrkrgg S,,“d”“” recommendedby
the Federal Accounting Standards Adv’                            roved by the
Secretary of the Treasury; the Director,=%B
                                         0   ;anJtbeCo       “St erwofthe
                                                            tro
United States. Footnote 1 of the Military R+irement Trust7 und Financii Statements
for FY 1997 discusses the significant m         policii that the Fund foIIowed in
preparing the financial statements.
                                                                                       2


               Scope. We have audited the Principal Statementsand Notes to the
Principal Statements of the Military Retirement Trust Fund for FYs 1997 and 1996.
The Principal Statements include the Statement of Financial Position and the Statement
of Operations and Changes in Net Position.
       An audit includes examining, on a test basis, evidence supporting amounts and
disclosures in those statements. An audit also includes assessing the accounting
principles used and significant accounting estimates made by management, as well as
evaluating the overall presentation of the financial statements. We believe that Our
audit provides a reasonable basis for our opinion.
        Our audit would not necessarily disclose all internal control and compliance
conditions that might be considered material weaknesses. Reportable internal control
and compliance conditions are summarizedinthisreportandwillbefurtheraddressed
in our report on internal controls and compliance with laws and regulations.
       In auditing the FY 1997 Military Retirement Trust Fund Finnnci Statements,
we reviewed over 600 military personnel files to determine whether the data used by
the DODOffice of the Actuary to determine the annual funding liability were accurate
and could be relied on. Obtaining data on over 600 military personnel required
coordination with numerous contact points in DoD. The delay in acquiring the data, as
we11as the extensive coordination and evaluation of the data, contributed to the delay in
rendering the final opinion. In addition, on January 6, 1998, we requested that a legal
re resentation letter be sent to us no later than January 23, 1998. The General Counsel
oPDODprovided a legal representation letter dated April 8, 1998, which also hindered
our ability to render the opmion.
        Internal Controls. We reviewed the Fund’s internal controls and obtained an
understanding of the internal wntrol policies and procedures. The internal controls
consist of the overall control environment, accounting systems, and wntrol procedures,
and should provide reasonable assurance that accounting data are accumulated,
recorded, and reported properly by management and that assets are safeguarded. We
performed applicable tests to determine whether the internal controls were effective and
working as desi ned. The actuarial accrued liability was overstated b $4.5 billion and
understated by B2.4 billion, for a net overstatement of $2.1 billion. Jh e overstatement
was caused by coding errors in the survivor benefit data and an application error in the
projection module used by the DoD Office of the Actuary. Statistrcians in the Office of
the Assistant Inspector General for Auditing, DOD, calculated the understatement from
errors that we identified during the review of participant data. The overstatement is not
material to the Fund’s fiaancial statements.
       Internal wntrolswere&ectiveInaccountingforand      ~~ur$es.
ensuring wmpliance with laws and regulations, and ensuring that
statements are free of material misstakments. However, in its FY 1997 Annual
Statement of Assurance, the




on the financial statements caused by this weakness. In future audits, we will wntiuue
to monitor the status of the weakness and its effects on the Fund’s financial statements.
                                                                                      3

        During audits of the Fund’s financial statements for FYs 1995 and 1996, we
noted instances of noncompliance in the area of debt collection. These weaknessesare
not material to the fipancial statements. We continue to monitor the corrective actions
initiated by DFAS to implement the Debt Collection Act of 1982 and the Debt
Collection Improvement Act of 1996.
        Compliance With Laws and Reguhtions. We reviewed compliance with laws
and regulations pcrtahing to the accuraq of the financial statements. Noncompliance
with laws and regulations is a reportable condition if the noncompliance could result in
material misstatements in the fioancial statements, or if the sensitrvi of the matter
would cause anyone to rceivc the noncompliance as significant. 9 nder the Federal
Financial Management El provement Act of 1996 and OMB Bulletin No. 93-06,
Addendum 1, ‘Audit Requirements for Federal Financial Statements,”
January 16.1998, our work disclosed tbat financial management systems did not fully
compl with Federal requirements for integrated fipancial management systems and the
U.S. Jovemm ent Standard General Ledger at the transaction level. However, the
noncompliance with the Federal Financial Management Improvement Act of 1996 did
not affect the reliability of the data in the Fund’s financial statements.



                                                 v
                                 David K. Steensma
                          Deputy Assistant Inspector General
                                    for Auditing
Appendix D. Financial Statements
This appendix (a total of 38 pages) consists of the FY 1997 Financial Statements of the
*Military Retirement Trust Fund.




                                          31
 Chief Financial
     Officer
Annual Financial
   Statement
    FY 1997




           February 27,1998
                     Overview




        DOD
MZLITARYRETIREMENT
     TRUST FUND


     OVERHEW
Overview




           2
                                                                                    Overview

                SUMMARY OFTHE MILITARY RETIREMENT                       SYSTEM

                                   As of September 30,1997


gVerview

The military retirement system applies to members of the Army, Navy, Marine Corps, and Air
Force. However, most of the provisions also apply to retirement systems for members of the
Coast Guard (administered by the Department of Transportation), ofkers of the Public Health
Service (administered by the Department of Health and Human Services), and offkers of the
National Oceanic and Atmospheric Administration (administered by the Department of
Commerce). Those not in plans administered by the Department of Defense are not included in
this valuation.

The system is a funded, noncontributory defined benefit plan that includes nondisability retired
pay, disability retired pay, retired pay for reserve service, and survivor annuity programs. The
Service Secretaries approve immediate nondisability retired pay at any age with credit of at least
20 years of active-duty service. Reserve retirees must be 60 years old with 20 creditable years of
service before retired pay commences. There is no vesting before retirement

There are three distinct nondisability benefit formulas related to three populations within the
military retirement system. Military personnel who first became members of the Armed Services
before Seotember 8. 1980 have retired pay equal to (terminal basic pay) times (a multiplier). The
multiplier is equal to (2.5 percent) times (years of service) and is limited to 75 percent. If the
retiree fifst became a member of the Anned Servicespn or after Sentember 8.1980;the average
of the highest 36 months of basic pay is used instead of ten&al basic pay. Members first
entering the Armed Servicespn or afte&~eust 1.1986 are subject to a penalty if they retire with
less than 30 years of service; at age 62, their retired pay is recomputed without the penalty.

Retiree and survivor benefits are automatically adjusted annually to protect the purchasing power
of initial retired pay. The benefits associated with members first entering the Armed Services
before August 1,1986 are adjusted by the percentage increase in the average Consumer Price
Index (CPI). This is commonly referred to as full CPI protection. Benefits associated with
members entering on or after August 1,1986 am annually increased by the percentage change in
the CPI minus 1 percent. At the military member’s age 62, the benefits are restored to the
amount that would have been payable had full CPI protection been in effect. This nstoral is in
combination with that described in the previous paragraph. However, after this restoral, partial
indexing (CPI minus 1 percent) continues annually for life.




                                                3
Overview

JUondisabilitv Retirement From Active Service

The current system allows voluntary retirement upon completion of at least 20 years of service at
any age, subject to Service Secretary approval. The military retiree receives immediate retired
pay calculated as (base pay) times (a multiplier). Base pay is equal to terminal basic pay if the
retiree first became a member of the Armed Services before September 8, 1980. It is equal to the
average of the highest 36 months of basic pay for all other members. The multiplier is equal to
(2.5 percent) times (years of service, rounded down to the nearest month) and is limited to 75
percent. Members first entering the Armed Services on or after August 1,1986, and who retire
with less than 30 years of service receive a temporary penalty until age 62. The penalty reduces
the multiplier by one percentage point for each full year of service under 30. For example, the
multiplier for a 20-year retiree would be 40 percent (50 percent minus IO percent). At age 62, the
retired pay is recomputed with the penalty removed.

In FY97,1.3 1 million nondisability retirees from active duty were paid $24.94 billion.


Disabilitv Retirement

A disabled military member is entitled to disability retired pay if the disability is at least 30 percent
(under a standard schedule of rating disabilities by the Veterans Administration) and either (1) the
member has eight years of service; (2) the disability results from active duty; or (3) the disability
occurred in the line of duty during a time of war or national emergency or certain other time
periods.

In disability retirement, the member receives retired pay equal to the larger of (1) the accrued
nondisability retirement benefit, or (2) base pay multiplied by the rated percent of disability. The
benefit cannot be more than 75 percent of base pay. Only the excess of (1) over (2) is subject to
Federal income taxes. Base pay is equal to terminal basic pay if the retiree fast became a member
of the Armed Services before September 8,198O. If the retiree first entered the Senks on or
after September 8,1980, base pay is equal to the average of the highest 36 months of basic pay.

Members whose disabilities may not be permanent are placed on a temporary-disability retired list
and receive disability retirement pay just as if they were permanently disabled. However, they
must be physically examined every 18 months for any change in disability. A final determination
must be made within five years. The temporary disability pay is calculated like the permanent
disability retired pay, except that it can be no less than 50 percent of base pay.

In FY97,116,000 disability retirees were paid $1.46 billion.




                                                   4
                                                                                      Overview

Reserve Retirement

Members of the tesexves may retire a&r 20 years of creditable service, the last eight of which
must be in a reserve component. However, reserve retired pay is not payable until age 60.
Retired pay is computed as (base pay) times (2.5 percent) times (years of service). Ifthe reservist
was first a member of the Armed Services before September 8,1980, base pay is defined as the
active duty basic pay in effect for the retiree’s grade and years of service at the time that retired
pay begins. If the reservist first became a member of the Armed Strvices on or a&r September 8,
1980, base pay is the average basic pay for the member’s grade in the last three years that he/she
was a member of the Armed Services. The years of senke are determined by using a point
system, where 360 points convert to a year of service. Typically, a point is awarded for a day of
service or a drill attendance, with 15 points being awarded for a year’s membership in a reserve
component. A creditable year of senke is one in which the member earned at least 50 points. A
member cannot retire without 20 creditable years, although points earned in non-creditable years
are used in the retirement calculation.

In FY97,221,000 reserve retirees were paid $2.22 billion.


fhrvivor   Benefits

Legislation originating in 1953 provided optional survivor benefits. It was later referred to as the
Retired Servicemen’s Family Protection Plan (RSFPP). The plan proved to be expensive and
inadequate since the survivor annuities were never adjusted for inflation and could not be more
than 50 percent of retired pay. RSFPP was designed to be selCsupporting in the sense that the
present value of the reductions to retired pay equaled the present value of the survivor annuities.

On September 21,1972, RSFPP was replaced by the Survivor Benefit Plan (SBP) for new
retirees. RSFPP still covers those servicemen retired before 1972 who did not convert to the new
plan and still pays survivor annuities.

Retired pay is reduced, before taxes, for the member’s cost of SBP. Total SBP costs are shared
by the Government and the retiree, so the reductions in retired pay are only a portion of the total
cost of the SBP program.

The SBP sukvor annuity is initially 55 percent of the member’s base amount. The base amount
is elected by the member, but cannot be less than $300 or more than the member’s full retired pay.
Ifa penalty for service under 30 years is included in the calculation of retired pay, the maximum
base amount is equal to the fU1 retired pay without the penalty.

The spouse’s annuity is considered a two-tier benefit because, at age 62, the annuity is reduced to
35 percent of the base amount. Prior to the enactment of the two-tier benefit, SuNivor annuities
were integrated with Social Security. SBP participants and active and reserve personnel with at
least 20 years of service on October I,1985 were grandfathered into the two-tier system. Their
survivors will be given the higher of the two annuities at age 62.



                                                 5
Overview


During FY87 the SBP program’s treatment of survivor remarriages changed. Prior to the change,
a surviving spouse remarrying before age 60 had the survivor annuity suspended. The change
lowered the age to 55. (If the remarriage ends in divorce or death, the annuity is reinstated.)     l




Beginning in April 1992, retirees with base amounts equal to full retired pay could also elect a
supplemental annuity for their surviving spouses after age 62, in increments of 5 percent of the
base amount, up to a maximum 20 percent benefit (The cost of this supplemental SBP benefit is
borne by retirees in the form of a reduction in retired pay over and above the usual 6.5 percent
reduction for SBP.)

Members who die on active duty with over 20 years of service are assumed to have retired on the
day they died and to have elected full SBP coverage for spouses and/or children.

SBP annuities are reduced by any VA survivor benefits and all premiums relating to the
reductions are returned to the survivor. Additionally, SBP annuities are annually increased with
cost-of-living adjustments (COLAS). These COLAS may be based on full or partial CPI increases,
depending on when the member first entered the Armed Services. If the member dies before age
62 and the survivor is subject to partial COLAS, the survivor’s annuity is increased (on the
member’s 62nd birthday) to the amount that would have been payable had full COLAS been in
effect. Partial COLAS continue annually thereafter.

For reserve retirees, the same set of retired pay reductions applies for survivor coverage after a
reservist turns 60 and begins to receive retired pay. A second set of optional reductions, under
the Reserve Component Survivor Benefit Plan, provides annuities to survivors of reservists who
die before age 60, but after attaining 20 years of service. The added cost of this coverage is borne
completely by reservists through deductions from retired pay and survivor annuities.

In FY97,223,000 surviving families were paid $1.62 billion.


Temuorarv Earlv Retirement Authoritv ITERA)

The National Defense Authorization Act for FY93 (P.L. 102-484) grants temporaryauthorityfor
the military services to offer early retirements to members with more than 15 but less than 20
years of se&e. The retired pay is calculated in the usual way except that there is a reduction of
 1 percent for every year below 20 years of service. Part or all of this reduction can be restored at
age 62 if the retired member works in a qualified public service job during the period fkom the
date of retirement to the date on which the retiree would have completed 20 years ofservice.
Unlike members who leave military service before 20 years with voluntaty separation incentives
or special separation beneflts, these early retimes are treated like regular military ret&es for the
purposes of other retirement fringe beneflts. This authority is scheduled to expirti the end of
FY99.




                                                  6
                                                                                        Overview

As of September 30,1997, there were 48,000 TERA retirees receiving retired pay at an annual
rate of $561 million.


Cost-of-Livinn Increases

All nondisability retirement, disability retirement, and most survivor annuities are adjusted
annually for inflation. Cost-of-living adjustments (COLAS) are automatically scheduled to occur
every 12 months, on December lst, to be reflected in checks issued at the beginning of January.

The “full” COLA effective December 1 is computed by calculating the percentage increase in the
CPI from the third quarter of the prior calendar year to the third quarter of the current calendar
year. The increase is based on the Urban Wage Earner and Clerical Worker Consumer Price
Index (CPI-W) and is rounded to the nearest tenth of one percent

The benefits of retirees (and their survivors) frost entering the Armed Services before August 1,
1986 are annually increased with the full COLA, all other benefits are annually increased with a
“partial” COLA. The partial COLA is the 111 COLA minus 1 percent A one-time restoral is
given to a partial COLA recipient on the first day of the month afIer the retiree’s 62nd birthday.
At this time, the retiree benefit (or survivor benefit if theretiree is deceased) is increased to the
amount that would have been payable had full COLAS been in effect. Annual partial COLAS
continue after this restoral.


RelationshiD with VA Benefits

The Department of Veterans Affairs (VA) provides compensation for Service-connected and
certain non-Service-connected disabilities. These VA benefits can be in place of (or in
combination with) DOD retired pay, but they are not additive. Since VA benefits are exempt from
Federal income taxes, it is sometimes to the advantage of a member to elect them.

Veterans Administration benefits also overlap survivor benefits through the Dependency and
Indemnity Compensation @XC) program. DIC is payable to survivors of veterans who died from
Service-connected causes. Although an SBP annuity must be reduced by the amount of any DIC
benefit, all SBP premiums relating to the reduction in benefit are returned to the SuNivor.


fnterrelationshin with Other Federal Service

For retirement purposes, no credit is given for other Federal service, except where cross-service
transferability is allowed. Military se&ce is generaIly creditable’toward the Federal civilian
retirement systems if military retired pay is waived. However, a deposit (equal to a percentage of
post-1956 basic pay) must be made to the Civil Service Retirement Fund in order to receive
credit. Military service is not generally creditable under both systems (but is for resentists and
certain disability retirees). Retired regular officers employed by the Federal Government lose a


                                                  7
Overview

substantial portion of their retired pay while so employed, and all retired members are subject to a
combined ceiling equivalent to Level V of the Executive Schedule. The ceiling does not apply to
those who had retired before October 13, 1978 (or were under age 60 and eligible for Reserve
retirement on that date) and were continuously employed by the Federal Government since that
date.


Pelationshiu of Retired Pav to Militarv Comuensation

Basic pay is the only element of military compensation upon which retired pay is computed and
entitlement is determined. Basic pay is the principal element of military compensation that all
members receive, but it is not representative, for comparative purposes, of salary levels in the
public and private sectors. Reasonable comparisons can be made to regular military compensation
@MC). RMC is the sum of(l) basic pay, (2) cash or in kind allowances (the housing allowance,
which varies by grade, location, and dependency status, and a subsistence allowance) and (3) the
tax advantages accruing to allowances because they are not subject to Federal income tax. Basic
pay represents approximately 72 percent of RMC for all retirement eligibles. For the 200year
retiree, basic pay is approximately 69 percent of RMC. Consequently, a 200year retiree may be
entitled to 50 percent of basic pay, but only 35 percent of RMC. For a SO-year retiree, the
corresponding entitlements are 75 percent of basic pay, but only 56 percent of RMC. These
relationships should be considered when military retired pay is compared to compensation under
other retirement systems.


social Securitv Benefits

Many military members and their families receive monthly benefits indexed to the CPI from Social
Security. As full participants in the Social Security systesn, military personnel are in general
entitled to the same benefits and are subject to the same eligibility criteria and rules as other
employees. Details concerning the benefits are covered in other publications.

Beginning in 1946, Congress enacted a series of amendments to the Social Security Act that
extended some benefits to military personnel and their stivors.  These “gratuitous” benefits
were reimbursed out of the general fund of the U.S. Treasury. The Senkemen’s aud Veterans’
Survivor Benefits Act brought members of the military into the contributory Social Security
system effective January 1,1957.

For the Old Age, Survivors, and Disability Insurance (OASDI) program, military members must
contribute the employee portion of the OASDI payroll tax, with the Federal Government
contributing the matching employer contribution. only the basic pay of a military member
constitutes wages for social sew@ pqoses. One faature ofOASD1 unique to military
personnel grants a noncontributoxywage credit of(i) $300 for each quarter betwan 1956 and
1978 in which such personnel received military wages and (ii) up to $1,200 per year after 1977
(S1OOofcreditforeachS3OOofwagesuptoa            maxim= credit of SlJOO). The purpose of this
credit is to take into account elements of compensation such as quarters and subsistence not
                                                                                     Overview

included in wages for social security benefit calculation purposes. Under the 1983 Social Security
amendments, the cost of the additional benefits resulting from the noncontributory wage credits
for past service was met by a lump sum payment from general revenues, while the cost for future
service will be met by payment of combined employer-employee tax on such credits as the service
occurs.

Members of the military are also required to pay the Hospital Insurance (HI) payroll tax, with the
Federal Government contributing the matching employer contribution. Medicare eligibility occurs
at age 65, or earlier ifthe employee is disabled. Entitlement to Medicare terminates entitlement to
benefits under the Civilian Health and Medical Program of the Uniformed Services (CHAMPUS),
although eligibility continues for medical care in military facilities on a space available basis.


Performance Measures

While there are many ways to measure the funding progress of a pension plan, the ratio of assets
in the fund to the present value of future benefits for annuitants on the roll is commonly used.
Here is what this ratio has been for the last twelve years:

                                    September   30,1997 = .32200
                                    September   30,1996 = .31314
                                    September   30,1995 = .30375
                                    September   30,1994 = .30306
                                    September   30,1993 = .283 14
                                    September   30,1992 = .27018
                                    September   30,1991= .25 127
                                    September   30,199O = .21878
                                    September   30,1989 = .19549
                                    September   30,1988 = .16211
                                    September   30,1987 = .11431
                                    September   30,1986 = .07187


&imitations of the Financial StatemenQ

These financial statements have been prepared to report the financial position and results of
operations for the Military Retirement Trust Fund pursuant to the requirements of the Chief
Financial Officers Act of 1990. While the statementshave been prepared from the books and
records of the Military Retirement Trust Fund in accordance with the formats prescribed by the
Oflice of Management and Budget, the statements are different from the financial statements usec
to monitor and control budgetary resources that are preparedfkomthe me books and records.
These statements should be read with the reahzation that they are for a Federal entity, that
unfunded liabilities reported in the &nmcial statements can not be liquidated without the
enactment of an appropriation, and that the payment of all liabilities other than for contracts can
be abrogated by DOD.


                                                9
Overview




           10
                Principal Statements




        DOD
MILITARYRETIREMENT
     TRUST FUND


PHNCIPAL   STATEMENTS
Principal Statements




                       (Thispage intentionally lefi blmrk)




                                        12
                                                                   Principal Statements
Dtp&lnent of Defense
DODMUitary Retirement Fund
Statement of Fhacial Polition
u of September NJ,1997
WoPrandr)

ASSETS                                                              1997
1. Entity Auttr:
    a Transectionswith Federal (Jntragovemmcntal) lMties:
        (1) Fund Balances with Tmsury (Note 2)                           SW45           $57,869
        (2) Investma&, Net (Note 4)                                 139,014,269     131,065,203
        (3) Accounts Receivable, Net (Note 5)                                 0               0
        (4) Intcrcst Receivable                                       4,228,139       4200,579
        (5) Advances and Pxqtaymcnts                                          0               0
        (6) Other Falcral (Mragovcmmental) (Note 6)                           0               0
   b. Tramactions with Non-Federal (Govanmental) Entities:
        (1) Investmeats,Nct (Note 4)                                          0               0
        (2) Accounts Receivable, Net (Note 5)                            24,%9            12,253
        (3) credit Program Receivables/ Related
             Foreclosed Property, Net (Note 7)                                0               0
        (4) Interest Receivable, Net                                          0               0
       (5) Advances and Prepayments                                           0               0
        (6) Other Non-Federal (Govunmmtal) (Note 6)                           0               0
   c. cash and other Mollctary Assets (Note 3)                                0               0
   d. Invtmtoty, Net (Note 8)                                                 0               0
   e. work in Process (Note 9)                                                0               0
   f. Operating MatcriMuppl.ics. Net (Note 10)                                0               0
   g. Stockpile Materials, Net (Note 11)                                      0               0
   h. s&4xiPropc@@Jotc12)                                                     0               0
     i. Forfeited Property, Net (Note 13)                                     0               0
    j. hods Held UnderPrice Support and
         Stabilization Pmgrams, Net (Note 14)                                 0               0
   k. Ropa~, Plant and Equipment, Net (Note 15)                               0               0
    1. warRescrves                                                            0               0
   m. othcrEntityAsscts                                                       0               0
   n. Total Entity Aareta                                          Sl43.272,022    s135,335.904

2. Non-Entity   AaM:,
   a Transactionswith Federal (Mragov~~tal)       Entities:
      (1) Fund Balance with Tmsuy (Note 2)                                   so              so
      (2) Accounts Receivable, Net (Note 5)                                   0               0
      (3) berest Raxivable, Nt                                                0               0
      (4) m=(Note6)                                                           0               0




The 8ccompqing      note8ue 8n integld   putof there tt8temtntr.


                                                              13
      Principal Statements
Deputmeat    01Defelue
DoDMilitay Retirementhrnd
statement of Pinurdal PO&ion
u of September 30,1997
qllotlr8ndr)

ASSETS, contiaued                                            199’1           m
2 Non-Entity Anret
  b. Trmsactiw with Non-Fodaal (Gov unmcntlll) Entities:
     (1) Aummts Rocehble, Net (Note 5)                                so              SO
     (2) Interest Receivable, Net                                      0               0
     (3) ma(Ne6)                                                       0               0
  c. CasbmdOthcrMonctnryAmts(Note3)                                    0               0
  d Other Non-ISty Assets                                              0               0
  c Tohl Non-Entity Ameta                                              0               0

3. TotdAmt~                                                 $143.272.022    s135.335.904




4. Ihbilitia Covered by Budgetary Raourcen:
   a. Tmsactions with Federal (Intrngovmmental) IMitics:
      (1) Accounts Payable                                            so              SO
      (2) I&rest Payable                                               0               0
      (3) Debt (Note 16)                                               0               0
      (4) OtherFederal (Intregovcmmental)
           Liabilities (Note 17)                                       0               0
   b. Ramactions with Non-Federal (Gov cnlmaal) Ealtitks:
      (1) Accounts Payable                                     2.63 1,053      2,548&U
      (2) Acuucd Pqroll and Benefits
          (a) Salaries and Wages                                       0               0
          (b) Annual AccruedLeave                                      0               0
          (c) scvcrancc Pay and sqmrath Allowance                      0               0
      (3) lntawt Payable                                               0               0
      (4) Liaitics for Loan Guaran~ (Note 7)                           0               0,
      (5) Lease LiAbwes (Note 18)                                      0               0
      (6) Pmsions and Otha Actuarial
           Liabilitie8 (Note 19)                             140,640,%9      132,787$60
      (7) OthaNon-Fedml        (Govunmcntal)
           Lhbilities (Note 17)                                        0               0
   L Total U&lit&a Covered by Budgetary Remucea             8143,272,022    3135~35,904
                                                                   Principal Statements
Department of Defemt
DODMiIit.aryRetirement Fhand
statement of FinaBcial Pwition
u of September 30,1997
(TJkous8nd8)

LIABIIJTIES,     Continued                                           l22z            lm

S. UabiIitier Not Covered by Budgetary Rmources:
  a Tramactim with Faicral (Intragov clnmultal) Entities:
     (1) Accounts Payable                                                     so               so
     (2) Debt (Note 16)                                                        0                0
     (3) Other Federal(latragovernm&al)
         Liabilities (Note 17)                                                 0                0
  b. Tramactions with Non-Fcdaxl (Governmental) Entities:
     (1) Aooounts Paynble                                                      0                0
     (2) D&t (Note 16)                                                         0                0
     (3) Lease Liabilities (Note 18)                                           0                0
     (4) Pensions and Other Actuarial
         Liabilities (Note 19)                                       501*074,103     414,912,140
     (5) Other Non-Federal (Governmental)
          Liabilities (Note 17)                                             118              110
   c Total Ihbillth Not Covered by Budgetary Reaourcw              S501,074,221     S414,912,250


6. Total Liabiliticr                                               S644,346,243     S550,248,154

NET POSITION (Note 20)

7. Balancea:
   a. Ihmpcndai Appropriations                                                so               so
   b. Invested Capital                                                         0                0
   c. Cumulative Results of Operations                                         0                0
   d Other                                                                     0                0
   e. Fume Funding Rquiranents                                      (501,074,221)    (414.912.250)
   1. TotaI Net Porition                                           (S501,074,221)   (S4 14,912,25Oj

8. Total Ihbilitia     sod Net Pwith                               3143,272,022     s135,335,904




‘Ihc accompaaying n0te.Jare 8n iategral pm-t oftberc rtatementr.




                                                         15
       Principal Statements
Deputment ofDefen8e
DODMilitary RethmentPmnd
Statement of Opcmtio~~ aad Changes in Net Pwition
For Period Ended September 30.1997
mo-da
                                                         1991          1996
REVENUES AND mNANaNGsouRcEs

 I. ApppliatedC8pit8lUsed                                        so            so
 2. RevumeshmSduofOoodsmdScrvicos
    a TothcPublic                                                  0               0
      b. Imgovcrnmentrl                                            0               0
 3.   IntaeJt and Pcnahiu, Non-Federal                             0               0
 4.   MaestsFakral                                        11,8s9,066    1Q80.558
 5.   Taxes (Note 21)                                                            0
 6.   OthcrRcvamsandFinan~Sourccs(Note22)                               21,873,163
 7.   Less: TmesmdRaGptsTrmskredto
      theTmsuyorOtkAgcncics                                        0               0
 8.   Total Reveamu and Fhndag Soamu                     S38.111.636   S33.153,721




 9.   progrrm~q#rtingExpcpscsw~~)                        530258,527    S28,991,489
10. CostafGoodsSold(Notc24)
    a TothePublic                                                  0               0
    b. Intrap-                                                     0               0
11. DlqmhtionaDd~on                                                0               0
12. Bad Debts-and Wtite-&                                          0               0
13. Intcrcst
    a FcdcralFinanchgBaMhmny
       Baarowing                                                   0               0
    b. FederalSauities                                             0               0
    c. olhex                                                       0               0
14. other Expews (Note 25)                                15,943,199    18,600,ooO
IS. TotalEqtnm                                           S46,201,726   S47,591,489

16. &xmss(Shmagc)ofRcvawcsmd


17.
18.




                                                    16
                                                           Principal Statements
aputmtnt    of Deft.me
DOD Military Betlrement Fund
Statement ofOperationsand CbaugeaIn Net Podtion
For Period Ended September 30,1997
frhoumnds)
                                                             l22?              1996
EXPENSES, continued

19. Net Pa&ion, Bqiming Bahce, u
    plm&uuly St&d                                          (w14,912$50)      (s407,169,291:t
20. Adjusknads (Note 27)                                     (78.071.873)        6,694.816
21. Net Positictm,Beginn@ Balmice,as
                                                           (w2$84,123)       (s400*4?4,475)
22. Exccss(sharhge)of   Revuluesd
     Finsing Sources OvcrTotalExpscs                          @SO90*0910       ~14.437.775)
23. Plus (Minus) Non 0paaiiq Changes
    (Notc28)                                                             0                0
24 Na Po&h, Ending Balance                             m                     (!5414,912,25oj




                                                  17
Principal Statements




                       18
                     Footnotes




        DOD
MILITARYRETIREMENT
     TRUST FUND




     FOOTNOTES
       TO THE
PHNCIPAL STATEMENTS
Footnotes




            (Thispage intentionally lefi blank)




Footnotes                   20
                                                                                       Footnotes


         NOTES TO THE DOD MILITARY RETIREMENT FUND
                   PRINCIPAL STATEMENTS
                   AS OF SEPTEMBER 30,1997

JVote 1. Sinnificant Accountine     Policies:

A. The DOD Military Retirement Fund was authorized by PL98-94 for the accumulation of funds
in order to finance on an actuarially sound basis liabilities of the Department of Defense under
military retirement and survivor benefit programs. These financial statements have been prepared
to report the financial position and results of operations of the Department of Defense Military
Retirement Fund, as required by the ChiefFinancial officers (CFO) Act of 1990, and other
appropriate legislation. They have beenprepared from the books and records of the Defense
Finance and Accounting Service Accounting Deputate Investment Trust Directorate (DFAS-
HQ/AE). These financial statements are presented on the accrual basis of accounting in
accordance with the requirements ofthe Office of Management and Budget Bulletin No. 94-01,
“Form and Content of Agency Financial Statements”, and subsequent issues.

    The program is funded by:
    (1) Annual unfunded liability payment from Treasury
    (2) Monthly Service contributions as a percentage of base pay
    (3) Interest on investments.


B. Accounting Method Used to Present Actuarial Liability Starting in FY 1997, the Military
Retirement Trust Fund financial statements present the unfunded actuarial liability determined as
                                                                       .
                                      ’ a channe from nrior vear renortmn. which nresented th e
of the end of the fiscal year. Tb i s IS
    .
&mnina-of-vear liability.This figure is approximate because of the lengthy time required to
develop an accurate end-of-year actuarial estimate and the accelerated deadlines for these
financial statements.

Actuarial Cost Method:     Starting in FY 1997, the Military Retirement Trust Fund fraancial
statements present the actuarial liability as of the end of the fiscal year using the “projected benefit
obligation” (PBO) cost method required by the Office of Management and Budget (OMB)
Statement of Federal Financial Accounting Standards No. J “Acchnting for Liabilities of the
                                                                   .       .
Federal Government” ms is a c&ge from prior vear renortmg, whrch D resented the
                        .   .        .                               .
          ated badit cWgatm.     wbh      ~ww      no fbtu re -eases.
Footnotes

JVote2. Fund Balances with Treasure (in thousands):

A. Fund and Account Balances:

                                                                               Entity Assets
                                                                             &Pm-       Other
                                                          Revolving          priatcd
                                           E               punds             J%mis           g             n!&

Unobligated Balance Available:
 Available                                      S4,645                  SO             SO            SO     S4,645
                                                     0                   0              0             0          0
RcsuveForAnti+kdRcsou~~s                             0                   0              0             0          0
Obligated (but not expensed)                         0                   0              0             0          0
unfundcdcontIact Ahrity                              0                   0              0             0          0
Urmsed Borrowing Authority                      &               +               .+               +          4
TrcamyBalancc


B. Other Information: Securities are redeemed to cover expenses.

rJote 3. Cash. For&n Currencv and Other Monetarv Assets fin thousands): Not applicable



                                     (1)                  (2)                                  (4)               (5)
                                                                                            Amonizd
                                                         Market                             Premium/        Investments
                                    c&l                  hh                                 fD&Qm                &I
A. htragovenuwntal
SccluiIies:
  (1) Markmble                             So                       SO                                SO               so
  (2) Non-Ma&table
  ParVahe                                   0                       0                                  0                0
  (3) Non-Marketable
  MUkCtBased                      145,479,816         157,029,135                            (6,465,547)     139,014,269
  Subtotal                       $145,479,816        Sl57,029,135                           (S6,465,547)    S139,014,269

B. Govcmmxml Securities:
   (1)      Not a@icable                   so                       so                                so               so
   Subtotal                                so                       so                                so               so
  Total                          $145,479.816       S157,029,135                            (S6.465,547)    S139,014,269


C. Other Information:The method used to determine amount amortized, book value of
investments, as of September30,1997, currentlyheld and related yield on invcstmcnt~ conforms
to the prevailing practice in the frnaacial community. The calculated yields match up with yields
in published security tables of U.S. Treasury securities.




Footnotes                                                22
                                                                                     Footnotes

JVote5. Accounts Receivable. Net (in thousands):


                                 (1)                (2)               (3)              (4)
                                Gloss          Allowance For      Allowance           NCt
                               Amount            Estimated         b&hod             Amount
                                 QE            JJncollectiiks     used (see            Due
                                                                   btlow)

A. Entity Receivables:
     hltmgovelnImtal                   SO                 SO                                 so
     GovcrnmclItal                 24,969                  0                             24,969

B. Non-Entity Reccivabks:
      Irdrag0VCrnmnta                   so                so                                  so
      GOVC~Iltd                          0                 0                                   0

C. Other Information: Accounts Receivablerepresent Refunds Receivable of overpayments of
benefits.

JVote 6. Other Federal flntraeovernmental) and Non-Federal (Governmental) Assets (in
$housands\: Not applicable

JVote7. Loans and Loan Guarantees. Non-Federal Borrowers fin thousands): Not
applicable

yote 8. Inventor-v, Net (in thousands\: Not applicable

Note 9. Work in Process (in thousands): Not applicable

y
pot   10.                                                 Net (in thousands   :   Not applicable

JVote11. Stocknile Materials. Net fin thousands\: Not applicable

JUote12. Seized Pronertv (in thousands): Not applicable

pate 13. Forfeited Pronertv. Net (in thousands): Not applicable

Fate 14. Goods Held Under Price SUDDOI~ and Stabilization Pronrams. Net (in thousandsk
Not applicable

JVote15. Prouertv. Plant. and Euuiument. Net fin thousands): Not applicable

pate 16. Debt fin thousands]: Not applicable
Footnotes

Note 17. Other Liabilities (in thousands\:

A. Other Liabilities Covered by Budgetary Resources Not applicable

B. Other Information: Not applicable

C. Other Liabilities Not Covered by Budgetary Resources:

                                              Non-Cunent
                                                yability
1. IntTagovernmcntal:
    (a) &c&d     Budget Authority   -                      so               so                    so
               Total                                       so               so                    so
                                              Non-Current
                                                Jhbility                                 Total

2. Governmental:
    (a) Canceled Budget Authity                           so                SO                  SO
   (b) Death Payment Contingency                        118                  0                118
                 Total                                 Sll8                 so               Sll8


D. Other Information: Not applicable

)Iote 18. Leases (in thousands\: Not applicable

JVote19. Pensions and Other Actuarial Liabilities (in thousands\:



                                                                           (3)                      (4)


                                                                        Available                UllfWKkd
                                                                                                 AmaIial
                                                                        Ezz                      Liability
A. Pension awl Health Plans:            S641,715,072                    S140,640,%9              s501,074,103
B. -AnuuityPrograms:
C.Otkr Nota@kabic
D. Total Lims A+B+C:                    S641,715,072                    s140,640,%9              s501,074,103




E. Other Information: The Military Retirement System is a single-employer plan. It is a defined
bcuefit plan. Administrative costs are not bome by the plan. The actuarial cost method used is
the aggregate entry-age-normal. Projected revenues, as authored by PL98-94, are to be paid
into the Fund at the beginning of each fiscal year by the Secretary of the Treasury as certified by
the Secretary of Defense. This permanent, indefinite appropriation, determined by the Board of


Footnotes                                        24
                                                                                        Footnotes

Actuaries, represents the amortization of the unfunded liability for service performed prior to
October 1,1984. Along with the 6.5% assumed annual interest rate, the long-term annual
Consumer Price Jndex is assumed to be 3.5% and the annual basic pay increase is assumed to be
4.0%. Other assumptions, such as mortality and retirement rates, are based on actual experience.

Accounting Method Used to Present Actuarial Liability Starting in FY 1997, the Military
Retirement Trust Fund financial statements present the unfunded actuarial liability determined as
                                                                       .      .
of the end of the fiscal year. J’his is a channe from un‘or vear renoxImn. whxh nresented the
    .
  emnnintz-of-vear liability. This figure is approximate because of the lengthy time required to
develop an accurate end-of-year actuarial estimate and the accelerated deadlines for these
financial statements.

Actuarial Cost Method: Starting in FY 1997, the Military Retirement Trust Fund financial
statements present the actuarial liability as of the end of the fiscal year using the “projected benefit
obligation” (PBO) cost method required by the Office of Management and Budget (OMB)
Statement of Federal Financial Accounting Standards No. 5, “Accounting for Liabilities of the
Federal Govemment.” This is a chanae from nrior vear renorting which nresented the
accumulated benefit oblination. which assumes no tkure salarv increases.



JVott 20. Net Position (in thousands):




A. unexpended
 Appropxiatiolu:
(1) Umbligated,
  a Available                   so                     so                    so                     so
  b. Unavailable                 0                      0                     0                         0
 (2) Undelivered                 0                      0                     0                         0
alders
B. hvested Capital               0                      0                     0                         0
C. Cumulative                    0                      0                     0                         0
Resuhs of
OpWiOXLS
                                 0                      0                     0
iff.*EFunding
                                 0          (501,074,221)                     0         (501.074.221)
F. Total                        so         (S501,074,221)                    so

G. Other Information: The fbture fiding   requirement is the amount of the unfunded portion of
‘tie DoD Military Retirement Trust fund actuarial liability.

JVott21. Tues (in thousands): Not applicable
Footnotes


Note 22. Other Revenues and Financine Sources fin thousands):

A. OtherRcvenws and FinancingSources:
                                                                 1997

           (1) Normal Cost &ttriiiution from Mviccs          s 11,101,570              S11,174,163
           (2) UnfundedLiabilityPaymentfrom Trwsuy             15,151,000               10,699,000
           Toti                                               S26,252,570              $21,873,163

B. Other Information: Not applicable

J@Iott23. ProPram or Outratine            Exnensts (in thousands):

                                                                 1997                     1996
A. OpaathgExpenses     by Object Classification:                              so                     so
(1) PerrollalServicesrrndBenefits                                              0                     0
(2) Travtl and hnsportation                                                    0                     0
(3) R-4     Communl‘cation aad utilities                                       0                     0
(4) Prhting and Reproduction                                                   0                     0
(5) Contmctualsewices                                                          0                     0
(6) Sup#ies and Materials                                                      0                     0
(7) Equipmentnot capitalized                                                   0                     0
(8) &au& Subsidiesand Contriiutions                                            0                     0
(9) hurancc CIaimsand Indemnities                                     30,258,527           28,991,489
(10) other (desclii):                                                          0                    0
(11) Total Ex~cnscsby Object Class                                   $30,258,527          $28,991,489



B. Operating Expenses by Program: Not applicable

rJote 24. Cost of Goods Sold (in thousands\:          Not applicable

JVote 25. Other Exnenses (in thousands\:

                                                                          1997
A otkxExpenws:
        (1) Change in Acmmial Liability for pcxiod                       s15,943,199           S18,600,000
        TOQl                                                             s15,943,199           Sl8,600,000


other Information:       Starting in FV 1997,
                                           the Military RetirementTn~stFund fhancial statements
present the actuarialliability as of the end of the fiscal year using the “projectedbenefit
obligation” (PBO) cost method required by the OMB Statementof Federal Financial Accounting
StandardsNo. 5, UAccounting for Lhbilities of the Federal Government.”This is a cbne from
    .                                 .
wlu& assumes no futu e salarv mcreases. The above figure for 1997represents the change in the
end&year PBO from ‘nr 1996 to FY 1997.
)7ote 26. Estraordinarp Items (in thousands\:


A.Extraordinary Items:

  (1)DdlPaymcntc4mtingency-(Increase)--
  Total



JVote27. Prior Period Adiustments (in thousandsl:


A: Prior Period   Mjustmcnts:

   (1) change     in Actuaria   Liability                   ($78.071.873)
   Total                                                   (W

B. Other Information: The FY 1996 actuarialliability using the ABO method was $547.7 billion.
The above‘figure represents the change in going from ABO to PBO for 1996.


Note 28. Non-Oneratine Chawes (in thousands\: Not applicable

)Yote 29. Intrafund Eliminations fin thousands\:

Schedule A; Sales within the General Fund by transactions Sales or services rendered) relative to
the DOD Component. Not Applicable

Schedule B; The selling Working Capital Fund (WCF) Component will report intraiknd
transactions (sales or services) within the WCF Component. Not Applicable

Schedule C; Sales and services between the DODMilitaty Retirement Trust Fund and other DOD
reporting entities by transactions and according to general ledger amounts for accounts
receivable, revenues, unearned revenues, and collections. It is presumed that an equal amount of
accounts payable, expenses, advances, and disbursements have been entered on the accounting
records of the purchasing activity.




DoDMilitay~TxustFund                        N/A      $26,252,570        N/A             S26,252,570
Total                                                S26,252,570                        $26,252,570
Footnotes


Customer Activity:                        column A          cQb!d!            ~olumll c              -

                                          Accounts
                                                            E-s                  advances         JXsbursemenis
Dcjmmcnt of
Dcpamcnt of
                the Army (T.I.21)
                the Navy (T.I. 17)
                                           Te                s3,974,471
                                                              4,034,92 1
                                                                                   N/A
                                                                                   N/A
                                                                                                          s3,974,471
                                                                                                           4,034,92 1
                                            N/A
Depamcti of     the Air Force (T.I.57)      N/A               3,092,178            N/A                     3,092,178
othcz Dcfensc   organiaions    (97W40)      N/A              15,151,OOo            NIA                    15,151,OOO
Total                                       N/A             $26,252,570            N/A                   S26,252,570




Other Information: Sl1,101,570 are collections from the Military Personnel aocounts of the
Military Services and S 15.15 1,000 are funds appropriated to account, Payments to Military
Retirement Fund, Defense and subsequently transferred to the Military Retirement Fund.

Schedule D; Sales or services between the DOD Military Retirement Trust Fund and other U.S.
Government reporting entities by transactions and according to general ledger amounts for
accounts receivable, revenues, unearned revenues, and collections. It is presumed that an equal
amount of accounts payable, expenses, advances, and disbursements have been entered on the
accounting records of the purchasing activity.



                                                                           U-d
                                                             Revtnue                         collections

DOD MiUary Retirement TNst Fund           S4,228,139        S11,807,681      N/A               $11,807,681
Total                                     S4,228,139        S11,807,681      N/A               Sll,807,681

Customer Activity:                       Column A           Co)omnB                          Column
                                         Accouats
                                          Pavablt                          Advancts         PM=-=-
Dqmmmt      of tk Treasury V.I. 20)       S&228,139         $11,807,681      N/A              S11.807,681
Total                                     S4,228,139        S11,807,681      N/A              S11,807,681



Other Information: $4,228,139 is Accrued Interest Receivable on U.S. Treasury Notes and
Bonds held by the DoD Military Retirement Fund.
For securities purchased on October 1,1986 and subsequent, discount and premium are
amortized through account 97X8097.2 Earnings on Investments. The amortization of discount
and premium for securities pumhased prior to October 1,1986 is reported to Treasury by
changing the Preclosing Unexpended Balance for account 97x8097.941 on reportFMS 2108.
Gains and loses on securities sold are also reported through account 97X8897.2. $11,920,116
wasreportedto account 97X8097.2 and (112,435) was reported via FMS 2108, which equals
S11,807,681 as reported above.




Footnotes                                              28
                                                                                     Footnotes

On the Statement of Operations and Changes in Net Position, Line 4 Interest,Federal shows an
amount of $11,859,066. This amount was determined as follows:


lntcrcstcollwtcd (cash)                             S13,076,320
AmortizedPremium                                     (1,300,403)
hxmizedDisamnt                                            31,760
Gain on sale                                                   4
  sllbmal                                           S11,807.681
InatastiIlACCIUdh.ltMC&RC&WblC                            51,385

                                                    S11,859,066




JVote30. Continetncies (in thousands): Not applicable


Note 31. Other Disclosures (in thousands):

Net Pension Expense: The net pension expense for the actuarial accrued liability is developed in
the table below.

              A.   Beginningof-Year Accrued Liability                S625,771,873
              B.   Normal Cost Liability                               11,101,570
              C.   Plan Amendment Liability
              D.   Benefit Outlays                                    (30,258,52;
              E.   Intmcst on Pension Liability (4 B, C, and D)         40,052,570
              F.   A-       Loss (Gain)                                (4,952,414)
              G.   End-of-Year Accrued Liabilit) (A+B+C+WE+F)        S641.715.072
              H.   Net Pension Eweme (B+C+D+E+m


Other Information: The interest on the pension liability (Line E) is calculated as a full year of
interest on the beginning-of-year accrued liability (Line A) and a half year of interest on the
normal cost liability and the benefit outlays (Line B and Line D).




                                                     29                                  Footnotes
Footnotes
             Supplemental Information




         DOD
M.ZLITARYRETIREMENT
     TRUST FUND


   SUPPLEMENTAL
    INFO~ATION
Supplemental Wonnation




                    (Tibispage intentionally lefl blank)




                                   32
.                                                  Supplemental Information

                                      TABLE I

                             DEPARTMENT OF DEFENSE
                            MILrrARYREnREMENTFuND
                  STATEMENT OF NET ASSETS AVAILABLE FOR BENEFITS
                                   (S in thousands)


                                                    For thePlan Year
                                                                   Ended:



    InY~ents, at ikir market value,
       U.S. Govunmcnt seculitics 1               S146J94J17        $157,029,135

    Accounts receivabIe
      Accruedinterest                              S4JOO>SO          S4,228,139
      Duefiomh&ilitaryRctkes
        or their Survivors                           SlU53              S24,969

    Cash                                             $57,869             S4,645

                                                                   3;61286.888


    Accounts Payable                                                (S2,63 1,053)




                                         33
.   Supplemental Information


                                                   TABLE2

                                      MILITARY -FUND
                             STATEMENT      OF CHANGES IN NET ASSETS
                                       AVAILABLE FOR BENEFITS
                                             (S in tIlol?samis)



    Net assets available
         fir bcncfits at bcginuiIlg of plan year                  Sl48,658,870    $148,016,875
    Ixwcstm~t income
                                                                   Sl2,502,872        Sl3,127,704
      Net appreciation (depreciation) in
      fair mrkct value of hwstmcnt ’                               (S6,026,543)        S1,517J13
    Contributions
      From services                                                s11,174,164        s11,101,570
      Appropriation to amortize
        unfimded liability                                         S 10,699,OOO       s15,151,ooo

    Total additions                                               S28,349,493         M&897,487

    Benefits paid to participants2                                $28,991,489         S30,258,527
    Net assets available for
        bencf%s at end of plan year




    1 hcst~~~ents bought, sold and held during the plan year ended September 30 apprecieed
      (depreciated) in value as follows:
                                                                      PY 1-4             PY 19%
      Apprechd (dcprccii             fair value over book value    @%804?228)          S2,785,852
      ArnoltizKidiscount                                              151Q12               31,760
       hortbdprernium                                               w74mI              WW~3)
       GaiU(loSS)ollsalC                                                     Q                    4
                                                                  (SWW43)              S1$17213



                                                                      PY1996             PY 1997
      Baxfitspaidoncashbasis                                      S28,831,111         S30,188J34
      IxKeasciniiabiityfmbcnefitsdueatcIldofyeat                   laos7g         J
    Benefits paid on accrual basis                                S28,99 1,489        S30,258,527


                                                         34 .
                                                               Supplemental Information


                                                 TABLE3

                                  MILITARYRETIREMENT       SYSTEM
                                ACTUARIAL STATUS INFORMATION
                                   AS OF SEPTEMBER 30.1997 ”
                                           (S in billions)



1. Presentvalue of Accumtiatcd Plan Benefits

     a Actuarial present
                       value of vested benefits
          I. Participants currently receiving payments              S4313           n/a
          II. Other vested partioipants                                             n/a
     b. Total vested                                                S486.4          a/a

     c. ActwuiaI present value of non-vested benefits                                a/a

     d Total acmrial present vahc of accumulated plan bcncfits      $547.7          n/a

2.   Present    value of future benefits                                     .


     a. hnuitants now on roll                                          da        S426.5
     b. Non-mired memists                                                         $24.0
     c. Active duty personnel 3
     d. TotaI
                                                                       2
                                                                       n/a       S721.6

3.   Resent     value of firhne nomal cost contributions               n/a        s79.9

4. Actuarial&liability                                                 n/a       3641.7

5. m           4,s                                                  s151.0       S140.6

6. Exti        of accumukd     benefits over assets                 5396.7          n/a

7. unfimdedaccnlcdIiability                                            n/a       sso1.1
.   Supplemental Information

                                      FOOTNO-IESFORTABE 3


    1.Startingin FY 1997,thcMilitaryRctiruncntTmstFundfinaacial-                     presenth
    unfunded actuarial liability deternhd as of the end of the fiscal year.

    2. Starting in FY 1997, the Military Retirement Trust Fund fhncial statements prcsa~t the
    actuhI liability as of the ebd of the fiscal year using the “projected benefit obligathxPcost
    method rquired by the office of Management and Budget (OMB) Statement of Federal
    Fhncial Accounting Staxukds No. 5, “Accounting fh Liiities of the Federal Government.”




    4. Total assets arc reported for g/30/96 because the liability for benefit pyma~ts due is included
    ia the act&al pescnt value of badits for participants curfently receiving payments.

    5. The assets available to pay benefits is reported for g/30/97 and is dctcrmhed using the
    umortizcd cost method (book vahc) of valuation.


                                                                                        .




                                                     36
Appendix E. Management and Legal
Representation Letters
This appendix (a total of 5 pages) consists of the management and legal representation
letters for the Military Retirement Trust Fund Financial Statements for FY 1997.




                                           33
                      THE    OFFICE    OF THE UNDER    SECRETARY             OF DEFENSE
                                         4000 DEFENSE PENTAGON
                                       WASHINGTON,   DC 20301-



                                                                                                         _
-NEL        AND
   READINESS



          MEMORANDUM FOR ASSISTANT INSPECTOR GENERAL FOR AUDITING

          SUBJECT: Management Assurance Concerning Military Retirement Trust Fund Financial
                   Statements for FY 1997

                 This is in regard to your audit of the Military Retirement Trust Fund Fiicial
          Statements (Project No. 7FH-2039) as of September 30,1997. In order to allow you to
          express an opinion on the fair presentation of the fmancial statements and on conformity
          with generally accepted actuarial and accounting principles, I confkn to the best of my
          knowledge and belief the following representations made to you during your audit:

                  l  Personnel and Readiness (hereafter referred to as we) is responsible for the fair
          presentation of the Fund’s financial statements in conformity with generally accepted
          actuarial and accounting principles.

                  lWe have made available to you all financial records and related data, including
          the minutes to the Board of Actuaries meetings.

                  lWe can provide reasonable assurance that the accounting and non-accounting
          systems used to produce the financial statements are reliable.

                   l We have no plans or intentions that would materially affect the carrying value or

          classification of assets and liabilities.

                  l   There have been no irregularities involving:

                          a) management or employees who have significant roles in the internal
          control structure; or

                            b) other employees that could have a material effect on the Cnancial
          statements.

                 l We have received no communications 60& regulatory agencies or auditors

          concerning noncompliance with, or dekiencies in, financial reporting practices that could
          have a material effect on the kin&l statements.

                 l There are no material transactions that have not been properly recorded in the

          accounting records and reflected in the financial statements.
       l   The Military Retirement Trust Fund has satisfactory title to all assets, and there
are no liens or encumbrances on such assets, nor has any asset been pledged.

        l There are no violations, or possible violations of laws or regulations whose

effects should be disclosed in the financial statements.

       l   There are no unasserted claims or assessments about which our legal
representative have advised us and which should be disclosed.

       l   There are no gain and loss contingencies which should,be disclosed.

       l   No eventshave occurred after the balance sheet date which we are aware of
and which should be disclosed or adjusted for the financial statements.

        l We can attest to the accuracy of the various account balances provided to the

Defense Fiice     and Accounting Service by the Services and used by us to prepare the
financial statements.

       l  All adjustments made to account balances by our activity or the Defense Finance
and Accounting Service are fully documented and were made in accordance with
applicable accounting standards.




                                     Jeanne B. Fites
                            Deputy Under Secretary of Defense
                                   Program Integration
            GENERAL     COUNSEL      OF THE DEPARTMENT              OF DEFENSE
                                 1600 DEFENSE PENTAGON
                              WAsHlNGTON,     D. C. 20301-l   600




                                            April 8,1998



MEMOMND~          FOR lXE ASSISTkWT INSPECTOR GENERAL FOR AUDITING                           .
                      DEPARTMENT OF DEFENSE

SUBJECT:      LEGAL REPRESEXTATION LETTER FOR AUDITORSCONCERNINGTHE.
              DEPARTMENTOF DEFENSEFISCAL YEAR 1997 MILITARY
              m          TRUST FUND FIN&VW    STATEMENTS

RxFERmCEs:           (a) Deputy Under Se        of Dtfarsc (Pmgramhtegmion)
                         OUSD(P&R) Memorandum dated Febnmy 9,1998, Subject:
                         Inspector Geneal, Department of Defense, Audit of the Military Trust
                         Fund Financial Stsements for W 1997

                     (b) Statanczt of Federal Finaxial Accounting Standard No. 5,
                         “‘Accounting for Contingmc5es,” December 1995

                     (c) American Bar Association statement of Policy Rrgading Lawyds
                         Responses to Auditors’ Requests for Information (December 1975)

       This memorandum responds to ref~encc’(a) which requests &at my o&t provide a legal
reprcsentatiunletter for the Military R&mncnt TrustFund for the tical year ended September
30,1997 and &om the period September 30.1997 tkougb Febzuary 27,1998.

       As General Cmsef of the Departxkt of Deftie, I advise you as fbllowr in connection
with your examimtion of the Military Retirema Trust Fund concerning matters that existed as
of September 30,1997 and km the period September 30,1997 through February 27,1998.

        As Gemal Counsel of the DepartmentofDcfhse, I have supervimy a@ority with
mpect to claims and litigation made against the Dcpanment ofDefense and its Agencies,
including the Milita~ Retirement Trust Fund. h such capacity,I or one of the lawyers OVK
~~homIex~~earpavisi~wouldbaocmieatcdliti~~on              andclaimstbitatentdorsstmed
invohkg the Wtaty Retirement Txust Fund. _         _




                                                                                         .
&town Claims. Titieation. and Assessments

         Subject to the foregoing, and to the last paragraphof tbis memorandum,I advise you thaw
as of September 30,1997 and kotn the period SeptemberSO,1997throughFebruary 27,1998,
neither I nor any of the lawyers over whom I exercisegeneral supervisionhave given substantive
attention to, or represented,the Military Retkmen t Trust Fund in conne& with any known
litigation, claim, or assessmentof %100million or more made againstthe Amd.

Ynassmed Claimsand Asscssm~

        IuGoxmation is also requestedccmcemingunassertedclaims and assessmentswhich this
office considersprobable of assertion and, if assert& would have a rcasm&Ic possibility of an
\mfavorableoutcome. I have in-           this requestto rCfK to mass~ccd chims and asscssnents
which if asserted, have a reasonablepossibility of resulting in a material unfavorable outcome
where materiality is defined as SlOOmillion or more.

       Subject to the last paragraph of this memorandum,I adviseyou thatneither I nor any of
the lawyers over whom I exercise legal superv&ionhave given substantiveattentionto, or
representedthe M&m RetirementTntst Fund in connection with any llnassmed chims or
assessments which, if asserted,would ~0nstiMC a material loss contingencywithin the scope of
clause (a) of Pmpph 5 of reference(c).

ReoresentatipnConcemineDisclosure

       Subject to the last paragraphof this memorandum, and consistentwith the last sentence
of Paragraph 6 of rcfaence (c), this will con&m that whenever,in the courseofpertonnng legal
services for the Deparunentof Defense,its Agcncicsor Field Activitieswith respect to a matter
recognizedto involve an unasscrtedpossible materialclaim or assessmentagairrst the Milimy
RetirementTrust Fund that may call for -al       statement disclosure,I or one of the lawyers
over whom I exercisegeneral legal supervisionhave fcnmeda professionalconclusionthat the
Departmat must disclose,or considerdisclosure,concerningsuch possible claim or assessmmt,
the lawyer forming such professionalconclusionwill so advise the Departmentand will consult
with the Department’sfinancialmanagersconcerningthe questionof such disclosureand the
applicablenquirancnts of refermce (b).



        This responseis limited by, and made in accordance with, the ABA Statementof Policy
RegardingLawyer3 Responses to Auditors’ Requests for hfmnation @ecmber 1975)
(referaxe (c)). Without limiting the generality of the f&going, the limita!ions set forth in such
Stament    on the scope and use of this response (paragraphs 2 and 7)) are specifically
incorporated herein by rcfaenct, and any description herein of any “loss contingmcies” is
qualified in its entirety by Paragraph 5 of reference (c) and the accompanying Commentary           .
(which is an integral part of this Statement). In addition, we do not interpret reference (a) to
require or authorize the release of inf’bnnation subject to the attorney-client privilege or the work
product doctrine, and iu responding to reference (a) we have provided no information subject to
that privilege or doctrine. Moreover, the information set forth he& is as ofMarch 30.1998,
and COWISmails that existed as of September 341997 and for the period September 341997
to February 27,1998, and I expressly disclaim any undertaking to advise you of changes which
may be brought to my attention or to the attention of the lawyers over whom I exercise gcncral
legal supervision afta March 30,1998.




                                                                                               .
Appendix F. Laws and Regulations Reviewed
   Subtitle III, Financial Management, Title 3 1, United States Code, including the
   requirements for accounting and accounting systems and information in 31
   U.S.C., 3511, 3512, 1513, and 3514, and financial statement requirements in
   31 U.S.C. 3515.

   Subtitle A, General Military Law, Title 10, United States Code, Armed Forces
   (as amended through December 1, 1994), chapter 74, “Department of Defense
   Military Retirement Fund,” March 1995

   Public Law 104-208, “Federal Financial Management Improvement Act of
   1996,” October 1, 1996

   Public Law 104-134, “Debt Collection Improvement Act of 1996,”
   April 12, 1996

   Public Law 103-356, “Government Management Reform Act of 1994,”
   October 13, 1994 “Federal Financial Management Act of 1994”

   Public Law 103-337, “Department of Defense Authorization Act of 1995, n
   October 5, 1994

   Public Law 103-62, “Government Performance and Results Act of 1993, n
   August 3, 1993

   Public Law 102-484, “National Defense Authorization Act for Fiscal Year
   1993,” October 23, 1992

   Public Law 101-576, “Chief Financial Officers Act of 1990,”
   November 15, 1990

   Public Law 99-177, “Public Debt Limit-Balanced Budget and Emergency
   Deficit Control Act of 1985”

   Public Law 98-369, “Deficit Reduction Act of 1984,” July 18, 1984

   Public Law 98-94, “Department of Defense Authorization Act of 1984, n
   September 24, 1983

   Public Law 97-365, “Debt Collection Act of 1982,” October 25, 1982

   Public Law 97-255 “Federal Managers Financial Integrity Act of 1982,”
   September 8, 1982

   Public Law 96-513 “Personnel Management Act of 1981,” December 12, 1980

   OMB Circular No. A-123, Revised, ‘Management Accountability and
   Control,” June 21, 1995

   OMB Bulletin No. 94-01, “Form and Content of Agency Financial Statements,”
   November 16, 1993


                                      35.
Appendix F. Laws and Regulations


      OMB Bulletin No. 93-06, “Audit Requirements for Federal Financial
      Statements,” January 8, 1993

      OMB “Statement of Federal Financial Accounting Standards and Concepts”

      Department of the Treasury, “Treasury Financial Manual,” June 12, 1990

      DOD Directive 5010.38, “Management Control Program,” August 26, 1996

      ytgy Directive 7200.1, “Administrative Control of Appropriations, * May 4,


      Joint Financial Management Improvement ‘Program “Core Financial System
      Requirements, n September 1995 (part of the “Federal Financial Management
      System Requirements “)

      DOD 7000.14-R, “DOD Financial Management Regulation,” volume 1,
      “General Financial Management Information, Systems, and Requirements, n
      May 1993

      DOD 7000.14-R, “DOD Financial Management Regulation,” volume 5,
      “Disbursing Policy and Procedures,” December 1993

      DOD 7000.14-R, “DOD Financial Management Regulation,” volume 6,
      “Reporting Policy and Procedures,” February 1996

     DOD 7000.14-R, “DOD Financial Management Regulation, * volume 7B,
     “Military Pay Policy and Procedures for Retired Pay,” June 1995

     DOD 7000.14-R, “DOD Financial Management Regulation,” volume 14,
     “Administrative Control of Funds and Antideficiency Act Violations,”
     August 1995

     DOD 7000.14-R, “DOD Financial Management Regulation,” volume 15,
     “Security Assistance Policy and Procedures, n March 1993




                                       36
Appendix G. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense (Personnel and Readiness)
   Deputy Under Secretary of Defense (Program Integration)
   Director, Defense Manpower Data Center
   Chief Actuary, DOD Office of the Actuary
Assistant Secretary of Defense (Public Affairs)
Director, Defense Logistics Studies Information Exchange

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency




                                          37
Appendix   G. Report Distribution




Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
   General Accounting Office

Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information, and Technology,
    Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal
    Justice, Committee on Government Reform and Oversight
  House Committee on National Security




                                          38
Audit Team Members

This report was prepared by the Finance and Accounting Directorate, Office of
the Assistant Inspector General for Auditing, DOD.

F. Jay Lane
Salvatore D. Guli
David F. Vincent
Thomas J. Winter
Debra E. Alford
Rodney E. Lynn
Gregory P. Guest
Ren6 L. TrischIer
Susanne B. Allen
